<html>
<title> - DRUG TESTING IN SCHOOLS: AN EFFECTIVE DETERRENT?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





            DRUG TESTING IN SCHOOLS: AN EFFECTIVE DETERRENT?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 30, 2000

                               __________

                           Serial No. 106-211

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ---------

                   U.S. GOVERNMENT PRINTING OFFICE
71-622                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                           Ryan McKee, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 30, 2000.....................................     1
Statement of:
    Cazenavette, George, Special Agent in Charge, New Orleans 
      Field Office, Drug Enforcement Administration; Major Pete 
      Schneider, Counterdrug Coordinator, Louisiana National 
      Guard; David Knight, Director, Gulf Coast HIDTA; and Tony 
      Soto, Deputy Director, Gulf Coast HIDTA....................    63
    Connick, Harry, district attorney, Orleans Parish, New 
      Orleans, LA; Yvonne R. Gelpi, president & principal, De La 
      Salle High School, New Orleans, LA; Aaron Middleberg, 
      former student, De La Salle High School; and Rosemary Mumm, 
      diversionary program director, Office of the District 
      Attorney of New Orleans....................................     8
Letters, statements, etc., submitted for the record by:
    Cazenavette, George, Special Agent in Charge, New Orleans 
      Field Office, Drug Enforcement Administration, prepared 
      statement of...............................................    66
    Connick, Harry, district attorney, Orleans Parish, New 
      Orleans, LA, prepared statement of.........................    11
    Gelpi, Yvonne R., president & principal, De La Salle High 
      School, New Orleans, LA, prepared statement of.............    18
    Knight, David, Director, Gulf Coast HIDTA, prepared statement 
      of.........................................................    83
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Middleberg, Aaron, former student, De La Salle High School, 
      prepared statement of......................................    42
    Mumm, Rosemary, diversionary program director, Office of the 
      District Attorney of New Orleans, prepared statement of....    45
    Schneider, Major Pete, Counterdrug Coordinator, Louisiana 
      National Guard, prepared statement of......................    77

 
            DRUG TESTING IN SCHOOLS: AN EFFECTIVE DETERRENT?

                              ----------                              


                         TUESDAY, MAY 30, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                   New Orleans, LA.
    The subcommittee met, pursuant to notice, at 10 a.m., at De 
La Salle High School, New Orleans, LA, Hon. John L. Mica 
(chairman of the committee) presiding.
    Present: Representatives Mica, Vitter, and Jefferson.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; and Ryan McKee, clerk.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. Pleased to be in New Orleans today with my 
colleague, Mr. Vitter. We are expecting Mr. Jefferson to join 
us, but I do like to start these hearings on time, and we have 
a full schedule today.
    Just for the information of those attending and 
participating today, this is an investigations and oversight 
subcommittee of the U.S. House of Representatives, I chair that 
subcommittee. I am pleased to have Mr. Vitter as a member of 
that subcommittee.
    Mr. Vitter has joined our subcommittee which just happens 
to be one of the larger subcommittees of--I think it is the 
largest one of the Government Reform Committee of the House of 
Representatives. And again, we are charged with investigations 
and oversight of our fraud areas of our Federal Government. In 
particular, our subcommittee focuses on national drug policy. 
Additionally, we conduct oversight and investigations over HHS, 
HUD, Department of Education, international trade issues and 
the Department of Justice. So we have a full platter.
    Today's hearing is being conducted at the request of Mr. 
Vitter, and the order of business today will be, I will start 
with an opening statement, I will yield to Mr. Vitter, and 
should we be joined by other Members. Also Mr. Vitter asked 
unanimous request that the record be left open for a period of 
2 weeks. Without objection, so ordered. And we will allow 
additional testimony, if individuals, organizations would like 
their statements to be made part of this record, they can 
request that through the subcommittee, or Mr. Vitter or myself, 
and we will see that it is made part of the record.
    We have two panels we will be hearing from. Our topic is 
the drug threat in schools, is drug testing an effective 
deterrent. Again, examination of this subject at the request of 
Congressman Vitter. The order of business again will be that we 
will hear from the two panels on our witness list.
    This being an investigations and oversight subcommittee of 
Congress, for the benefit of the witnesses testifying today, 
all of the witnesses will be sworn. I will do that in just a 
minute. Additionally, if you have any lengthy statements or 
documentation, information, background that you would like to 
be made part of the official congressional record of this 
hearing, upon request through the Chair, that will be granted.
    With that in mind, our first panel today consists of Mr. 
Harry Connick, district attorney for New Orleans, the State of 
Louisiana; Yvonne R. Gelpi, president and principal of the De 
La Salle High School in New Orleans, and I do want to thank you 
at this point for offering your school facilities for this 
congressional hearing. Additionally, we have Aaron Middleberg, 
a former student of De La Salle High School, and Rosemary Mumm, 
she is in charge of the diversionary program, the Office of the 
District Attorney of New Orleans.
    I will now start with my opening statement, and will swear 
in our witnesses after we have heard from other Members.
    Our subcommittee today is conducting this oversight field 
hearing as part of our need to understand fully the Nation's 
drug crisis, how it impacts different parts of our Nation, and 
what effect drug control efforts are under way and should be 
fully supported.
    Today, we will learn about what kind of drug treatment 
exists in New Orleans, and specifically will address and 
examine local efforts to combat this problem in schools through 
the use of a drug testing program.
    Since New Orleans is uniquely located in a deep-water port, 
and the Gulf Coast area has thousands of miles of coastline, 
drug trafficking organizations use this area as a logical 
transit point for illegal narcotics coming from Mexico, the 
Caribbean and South America. We are privileged to have with us 
today a congressional leader who strongly supports efforts to 
stop the flow of illegal narcotics into the United States, and 
also is an activist in protecting our communities from the 
ravages these illegal drugs cause. I know that Mr. Vitter, who 
invited us to this congressional district here in beautiful and 
historic New Orleans, has been very active in helping this 
region in dealing with issues of drug prevention and treatment, 
and also addressing national and international drug control.
    I recognize also that he is a resident expert on the needs 
and concerns of the citizens throughout this area, and also an 
important force in fashioning Federal, State and local 
solutions.
    I want to thank all the participants for their presence 
here today, and also for their dedication to this issue which 
is of critical importance to everyone across America. We are 
honored to have testifying before us a number of Federal, 
regional and local officials who are engaged in responding to 
the drug crisis and its terrible daily consequences. These 
officials serve, in fact, on the front line. They are 
apprehending and prosecuting drug producers and traffickers, 
and also counseling and educating those whose lives have been 
impacted, or well could be impacted by the use of illegal 
narcotics.
    This subcommittee is particularly interested in how this 
community has designed and implemented the school drug testing 
program. Since the early 1990's, drug use among our youth has 
exploded. Clearly youth drug abuse wreaks havoc in our school 
systems, leading to poor performance, leading to crime, leading 
to tragedies in families. These children in our educational 
system are, in fact, the future of our country. We need to use 
every tool at our disposal to create a safe and drug-free 
learning environment in our schools. I want to take a moment to 
commend District Attorney Connick for his years of persistence 
and innovation in helping create these programs.
    I personally believe that drug testing can be an effective 
deterrent to drug use in our schools, and I am also interested 
in learning more about effective and fair programs that can be 
replicated and used as models across our country.
    In Congress, we want to ensure that the Federal Government 
is doing everything possible to assist you here in your local 
community, both in reducing the supply of drugs in the 
community as well as reducing the demand for illegal narcotics.
    At a recent hearing of our subcommittee, we learned that 
estimates of Americans in need of drug treatment range from 4.4 
to 8.9 million people. And less than 2 million people are 
reportedly receiving treatment at this time. This gap must be 
addressed. Our subcommittee will continue its oversight in this 
area, and also seek to improve our Federal programs that 
support successful State and local drug treatment, prevention 
and education, and, in this case, I hope, testing programs.
    Today, we are focusing on the special challenges and 
threats facing New Orleans. Drugs pose a threat to our schools, 
to our law enforcement officials, and also to your health 
system. Since, again, New Orleans is so strategically located 
between the southwest border and the eastern seaboard, your 
community faces a great risk that drug trafficking 
organizations will operate here to move drugs coming in from 
Mexico and South America, the Caribbean and to and from other 
parts of the United States.
    To help respond to these unique challenges, several 
counties and parishes in Louisiana, Alabama and Mississippi 
have been designated by the White House Office of National Drug 
Control Policy [ONDCP], as we refer to, as a high-intensity 
drug traffic area. And that also as an designation, an acronym 
we call HIDTA. These HIDTAs, high-intensity drug traffic areas, 
under Federal law, are defined as regions in the United States 
with serious drug trafficking problems that have a harmful 
impact on other areas of the country.
    The mission of HIDTAs is, according to law, ``to enhance 
and coordinate America's drug control efforts among Federal, 
State and local agencies in order to eliminate or reduce drug 
trafficking, including the production, manufacture, 
transportation, distribution and chronic use of illegal drugs 
and money-laundering, and its harmful consequences in the 
critical regions of the United States.''
    Our subcommittee is responsible for authorizing and also 
for overseeing the Office of National Drug Control Policy, also 
known as the drug czar's office, and also have oversight 
authority over all of the Nation's HIDTA programs.
    Since the Gulf Coast HIDTA was created in 1996, we will 
learn more today about some of its accomplishments and targeted 
initiatives in combating illegal drugs in this area. We did 
have an opportunity yesterday, I know, after Mr. Vitter 
finished some of his Memorial Day obligations, to meet on a 
preliminary basis with some of the officials involved in the 
HIDTA and got some preliminary information. Today, we hope to 
have additional information on the record of the success and 
how we can make more effective the HIDTA operating in this 
region.
    I applaud the continuing dedication and professionalism of 
our witnesses who are here today. Some I have had an 
opportunity to meet before, and many I have had an opportunity 
to hear about their successes. I am very pleased that they are 
willing to share their ideas and needs and requirements on how 
we can all work to better do the job we need to do in this 
important area. I can assure you that this subcommittee and 
your representatives who are here today will do everything they 
can and we can to assist you in protecting your loved ones and 
also ridding your communities of deadly, illegal narcotics.
    We all recognize that the drug crisis demands absolute full 
utilization of all of our available resources and close 
cooperation in a comprehensive regional and national approach. 
It is our job in Congress to monitor Federal activities and 
ensure their success. If obstacles are identified, then we must 
move decisively to overcome them. New Orleans, and the rest of 
our country, cannot afford to wait. The drug crisis demands 
promising approaches and decisive action, and the time to act 
is now.
    Again, I want to thank all of the witnesses who will be 
appearing before us today. I look forward to hearing your 
testimony on this topic of local, State, regional and national 
importance. I look forward to working with you.
    I am pleased at this time to yield to the gentleman from 
Louisiana, Mr. Vitter, for the purpose of an opening statement.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T1622.001
    
    [GRAPHIC] [TIFF OMITTED] T1622.002
    
    Mr. Vitter. Thank you very much, Mr. Chairman. I want to 
begin by thanking you for bringing this subcommittee field 
hearing to New Orleans to talk about mandatory drug testing, 
and its effectiveness, particularly in schools. And I really 
want to point out to everyone here, John Mica, as chairman of 
the Criminal Justice, Drug Policy, and Human Resources 
Subcommittee, has done tremendous work in the House, really 
putting together a multi-faceted approach to the drug problem, 
both on the supply side and the demand side--both the law 
enforcement and the treatment and education end. And I think it 
is clear that is the only way we are going to get a handle on 
this problem, is address all of those very real needs.
    As the chairman indicated, law enforcement in this area 
faces a daunting challenge with the port, with our location 
with I-10, in terms of the supply side, and we have gotten to 
visit with many Federal and State and local law enforcement 
officials. We are going to do more of that later on today. I 
want to complement all of those folks with HIDTA, DEA, Customs, 
U.S. Attorney's office, FBI, local law enforcement for doing 
the work they do.
    But it is clear to me that a crucial part of addressing 
this problem is on the demand side. And we need to cut down 
demand and solve the drug problem in that way as well. And 
really, that is what this discussion is all about.
    Today, we are looking at a very innovative approach to the 
demand side that Harry Connick has put together over the last 
several years, and which has been implemented in six area high 
schools. The Louisiana High School Drug Testing Program is 
currently working, I think, very effectively in those schools 
to make them drug-free schools and to reach out to kids with 
problems and get them treatment and turn those lives around at 
an early age before it is too late. Of course, I am going to 
leave the task of explaining the program in detail to the 
panelists, but I do want to make a few comments about it.
    First of all, I think it is very important that this 
program targets the members of our community who are most 
vulnerable and who we need to focus on, getting to them early 
to address the problem, to get them treatment and to turn their 
lives around before it is really too late, and before it is 
much, much more difficult after their habits have formed. I 
think that is a tremendously important part of this problem.
    Second, I greatly appreciate the DA's strong conviction 
that testing has to be coupled with treatment. This is not 
testing for prosecutorial purposes at all, this is testing to 
identify kids with a problem and to get them treatment 
immediately, effectively, aggressively, to turn their lives 
around. And that is a very, very important component of this 
program.
    And third, I want to compliment the DA on putting together 
a lot of emphasis on documenting the results of this program, 
because that is the only way we are really going to know how 
well it works, how it can be fine-tuned, and hopefully how it 
can be brought to other schools in the area and other schools 
around the country. That is another very important part of this 
ongoing developing program. So I look forward to the testimony.
    I do want to recognize a few people who are not on the 
panel. Judge Camille Burris and Tim McElroy, first assistant 
district attorney in the Orleans District Attorney's Office 
have both been very involved in developing this concept, along 
with many of our panelists, and I want to compliment them for 
their work. And I also want to thank the DA's chief 
investigator, Howard Robertson, and all of the DA investigators 
who have not only helped with this program but helped with our 
hearing today, and putting the logistics together.
    With that, Mr. Chairman, I yield, and I look forward to the 
testimony of both of our panels.
    Mr. Mica. I thank the gentleman.
    And we will now turn to our first panel of witnesses. Mr. 
Connick, Ms. Gelpi, Mr. Middleberg and Ms. Mumm, would you 
please stand and be sworn?
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I am 
pleased to welcome you here today. I guess I ought to thank 
Principal Gelpi also for having us here today. I guess it is a 
rather unique occasion to have a congressional hearing in a 
school, but we commend you on your making this facility 
available, and also appreciate, again, your hospitality.
    I am going to first recognize the district attorney of New 
Orleans, State of Louisiana, Mr. Harry Connick, for his 
statement. Good morning.

STATEMENTS OF HARRY CONNICK, DISTRICT ATTORNEY, ORLEANS PARISH, 
NEW ORLEANS, LA; YVONNE R. GELPI, PRESIDENT & PRINCIPAL, DE LA 
 SALLE HIGH SCHOOL, NEW ORLEANS, LA; AARON MIDDLEBERG, FORMER 
     STUDENT, DE LA SALLE HIGH SCHOOL; AND ROSEMARY MUMM, 
DIVERSIONARY PROGRAM DIRECTOR, OFFICE OF THE DISTRICT ATTORNEY 
                         OF NEW ORLEANS

    Mr. Connick. Good morning. I must begin by thanking you, 
Congressman Mica, for authorizing and chairing the subcommittee 
hearing, and Congressman David Vitter for requesting it and 
making it happen. Thanks are also due to our Congressman 
William Jefferson and our Senator Mary Landrieu for their 
interest and support of our high school drug testing efforts.
    These days, no one seems to be asking the question, are we 
winning the war on drugs? There was a time, however, when 
people did ask drug enforcement officials and legislators this 
question. They asked it with the hope and expectation of a 
victory. And when this question was put to them, these 
officials never answered the question directly. They never said 
yes, they never said, no. They always said that progress was 
being made and cited various initiatives designed to assure us 
that progress was, indeed, being made in this so-called war.
    In my 40 years in the criminal justice system, I have never 
seen any of these initiatives make a lasting difference. 
Certainly there have been successes, but we are somehow always 
left with the same problem, a constant and substantial demand 
for drugs. We now accept that we are a society that continues 
to have a serious drug problem, and really do not expect too 
much to be done to change it. It has been a long time since I 
have heard anyone ask, are we winning the war on drugs?
    Attempts to eradicate drug cultivation in this and other 
countries has never really succeeded. Attempts to interdict 
drugs illegally entering this country have not done much 
better, and despite the millions of tax dollars expended, 
``Just say no'' did not work and D.A.R.E., HIDTA and other 
preventions and commendable enforcement efforts have not really 
diminished the supply of or the demand for drugs. No one can 
honestly say that we have won or we are winning the war on 
illegal drugs.
    The majority of tax dollars being spent to combat illegal 
drugs are spent trying to reduce the supply side of drug trade. 
However, there will always be a supply if there is a need. Only 
relatively recently has serious thought been given to the 
critical need for testing, treatment and counseling, the best 
way to reduce drug demand. Fortunately, increased attention is 
being given to programs that deal with drug users coming into 
the criminal justice system. Diversion programs and drug courts 
are beginning to show signs of success. But these efforts are 
directed to persons who are already a part of the criminal 
justice system.
    The question we should now seriously address is, how do we 
keep people, especially teenagers out of the system? We have 
learned that there is one method that stands out as the most 
effective prevention method today, and that is drug testing. In 
the New Orleans area, we are now using the most effective 
demand-reduction tool, I believe, that this country has ever 
known, and that is the testing of a limited number of our high 
school students in this area. We have learned, through 
concrete, tangible experience that drug testing is working. In 
New Orleans alone, there are current three parochial high 
schools successfully testing all of their students, three more 
parochial high schools in St. Tammany Parish are doing the 
same, and three additional parochial high schools in Jefferson 
Parish will begin testing this fall.
    These schools utilize drug testing by use of hair analysis, 
which we have found to be the most effective testing method. 
Other schools, both public and private, want to implement drug 
testing programs, but cannot do so because of an absence of 
funds. Public schools in New Orleans will begin testing the 3-
percent of all students engaging in athletic and other extra-
curricular activities this fall. Probably the most significant 
and dramatic event taking place in New Orleans is the planned 
drug testing of public school students at Frederick A. Douglass 
High School. Douglass is the first and only public school to 
adopt such a unique drug testing program, employing both the 3-
percent rule and the voluntary testing of students. Mr. Vincent 
Nzinga is the principal at that school. The Douglass program 
will begin this fall, and will run for a 2-year period.
    There are many benefits to drug testing high school 
students, who incidentally probably will have to be tested 
anyway after they leave school. First, testing identifies those 
students using drugs, and is the predicate for early 
intervention in the form of non-punitive counseling and 
treatment. It also deters the use of drugs, especially among 
those students who are beginning to consider experimenting with 
drugs, and it is a fact that most students refuse to use drugs 
when they know they are going to be tested. Also students who 
remain drug-free until their 18th year will probably not use 
drugs thereafter, and it is certainly less expensive to drug 
test and treat a person before arrest than after.
    Parents are overwhelmingly in support of having their 
children tested. We know drug testing reduces demand, and when 
you reduce the demand, supply reduction must follow. There is a 
dire need to expand these successful drug-testing programs, and 
we are looking to you to lead the way in funding these 
projects.
    We thank you for visiting us and urge you to help us in 
Louisiana to create a model high school drug testing reduction 
program for the country. Thank you.
    Mr. Mica. Thank you. And we will withhold questions until 
we have heard from all of the witnesses.
    The next witness is the president and principal of the high 
school here, Yvonne Gelpi. You are recognized.
    [The prepared statement of Mr. Connick follows:]

    [GRAPHIC] [TIFF OMITTED] T1622.003
    
    [GRAPHIC] [TIFF OMITTED] T1622.004
    
    [GRAPHIC] [TIFF OMITTED] T1622.005
    
    [GRAPHIC] [TIFF OMITTED] T1622.006
    
    [GRAPHIC] [TIFF OMITTED] T1622.007
    
    Ms. Gelpi. Good morning, Chairman Mica; welcome back, 
Congressman David Vitter. We are very proud of David, he was 
valedictorian of his class of 1979, graduated from De La Salle, 
and distinguished guests.
    What if I told you I had a way to reduce detentions for 
fighting by 85 percent, and detentions for disruptive behavior 
by 65 percent in your schools? What if I told you you could 
completely turn around the culture of your schools, reducing 
stealing and cheating, so that students could focus on getting 
their educations? If I told you it would cost about $50 a 
student to accomplish this, would you object? Would any parent 
object to this additional cost?
    De La Salle has found a way to accomplish this, and it 
happens when a school does mandatory drug testing of students, 
faculty and staff. We are not talking theory here, we are not 
talking possibilities, we are speaking about hard data, 
gathered from over 2,500 drug tests over a 3-year period. We 
did reduce detentions. We did change the culture of our school. 
But better than that, we gave our students a chance to say no 
to peer pressure and to avoid experimentation with drugs at a 
young age.
    In the Youth Risk Behavior Survey by the Louisiana Office 
of Addictive Disorders, conducted prior to our implementation 
of mandatory drug testing, we found that 10 percent of our 
students reported trying marijuana and 10 percent trying 
cocaine before the age of 13. Frightening. Thirty percent 
indicated they had been offered, sold or given illegal drugs on 
our campus.
    The purpose of our drug testing program is not intended to 
be punitive. It is intended to stop an undesirable behavior 
that is interfering with learning. We warned our students 90 
days before the tests began that, if they were experimenting 
with drugs, they should cease immediately. We wanted to throw 
out the drugs, not the kids.
    On the handout on page 2, are some statistics about our 
program over a 3-year period. Year one, we had 3.4 percent test 
positive. Year two, positives were down to 2.1. And year three, 
the latest results, which are not even printed in the booklet 
yet, the number is fewer than 1 percent. That is 6 students out 
of 850; 5 of them seniors and 1 junior; 5 boys and 1 girl. The 
results speak for themselves. Mandatory drug testing works.
    Why are schools afraid to implement drug testing? In 
speaking all over the United States, I have found five common 
concerns, and they are listed on page 1 of the handout. Schools 
are afraid people will think they have a drug problem. Schools 
are afraid of a Civil Liberties lawsuit. The Supreme Court has 
authorized random testing of high school athletes, and the 7th 
Circuit has allowed drug testing of all students in any extra-
curricular activity. Students have a right to an education. I 
cannot imagine any court in the land ruling that students have 
a constitutional right to use drugs.
    False positives are also a major concern. What about 
second-hand smoke, and the coarseness of African-American hair? 
The scientific testing methods used by Psychemedics have almost 
completely eradicated false positives. We have had no incidence 
in over 2,500 drug tests, and African-American hair is a non-
issue. And we have data to prove that. Confidentiality, who is 
going to know about who tests positive? And mistaken identity. 
The chain of custody has to be very specific and very clear.
    We chose to use hair testing because it was more reliable 
than urine testing. We could not get a positive urine test, 
even when all indications of drug use were there. Go on the 
Internet, and you will find 101 ways to beat the urine test. 
Hair testing by Psychemedics is outstandingly reliable. Since 
we began in 1998, nine other Catholic schools in the area have 
followed suit, and they are experiencing similar successful 
results, and I see some of those principals here. Thanks to 
District Attorney Harry Connick, drug testing will be 
implemented in the first public school in our city.
    There is a commercial on TV about a father losing his son 
to drug overdose. I believe the actor's name is Carroll 
O'Connor. It is poignant and heartbreaking. He states at the 
end, ``Get between your kid and drugs, any way you can.'' I 
believe that with all my heart. We have a responsibility and a 
duty to get between our kids and drugs any way we can.
    Thank you.
    Mr. Mica. Thank you for your testimony. And we will hear 
now from Aaron Middleberg. He is a former student of De La 
Salle High School. You are recognized, sir.
    [The prepared statement of Ms. Gelpi follows:]

    [GRAPHIC] [TIFF OMITTED] T1622.034
    
    [GRAPHIC] [TIFF OMITTED] T1622.035
    
    [GRAPHIC] [TIFF OMITTED] T1622.036
    
    [GRAPHIC] [TIFF OMITTED] T1622.037
    
    [GRAPHIC] [TIFF OMITTED] T1622.038
    
    [GRAPHIC] [TIFF OMITTED] T1622.039
    
    [GRAPHIC] [TIFF OMITTED] T1622.040
    
    [GRAPHIC] [TIFF OMITTED] T1622.041
    
    [GRAPHIC] [TIFF OMITTED] T1622.042
    
    [GRAPHIC] [TIFF OMITTED] T1622.043
    
    [GRAPHIC] [TIFF OMITTED] T1622.044
    
    [GRAPHIC] [TIFF OMITTED] T1622.045
    
    [GRAPHIC] [TIFF OMITTED] T1622.046
    
    [GRAPHIC] [TIFF OMITTED] T1622.047
    
    [GRAPHIC] [TIFF OMITTED] T1622.048
    
    [GRAPHIC] [TIFF OMITTED] T1622.049
    
    [GRAPHIC] [TIFF OMITTED] T1622.050
    
    [GRAPHIC] [TIFF OMITTED] T1622.051
    
    [GRAPHIC] [TIFF OMITTED] T1622.052
    
    [GRAPHIC] [TIFF OMITTED] T1622.053
    
    [GRAPHIC] [TIFF OMITTED] T1622.054
    
    [GRAPHIC] [TIFF OMITTED] T1622.055
    
    [GRAPHIC] [TIFF OMITTED] T1622.056
    
    Mr. Middleberg. Good morning, Chairman Mica, Congressman 
Vitter, and guests. My name is Aaron Middleberg, and I am a 
graduate of De La Salle's class of 1999.
    I came to De La Salle in 1995 as a freshman. Two years into 
my high school career, De La Salle introduced the drug testing 
policies. All students were informed that in 90 days, the 
entire student body would receive a drug test. This came as a 
bit of a surprise to several students and parents, but the 
administration knew the challenges the students faced, and the 
fact that drugs were readily available in the New Orleans area. 
And this would be a way to make sure that each student was 
taking full advantage of the right to learn in a safe and drug-
free environment.
    The administration moved through with their plan and drug 
tested the entire student body. Barely 2 months after the drug 
testing began, I was called down to Ms. Gelpi's office. I 
thought to myself, what have I possibly done now? I knew I had 
parked in the teachers' lot, as well as probably was tardy, and 
I just might have cut in the lunch line. But I was wrong. It 
was not for those reasons. She wanted my opinion on the drug 
testing. My answer to her was, I think it has been wonderful. 
The people that would hang around outside of school when the 
dismissal bell would ring were gone, and the No. 1 thing that 
made a difference was, every single student in De La Salle had 
a reason to say no. Every De La Salle student had a reason to 
say no.
    One might ask, is it worth the money to drug test everyone, 
or should we just drug test the kids we suspect? Test every 
single person, including the staff, and you will have a school 
that is almost drug-free, and one less peer pressure on a 
student--one less peer pressure.
    It worked for me, so let us make it work for everyone. It 
is not a punishment, it is a privilege to know someone cares 
that much about you.
    Thank you.
    Mr. Mica. Appreciate your testimony. And we will now hear 
from Rosemary Mumm. She is the diversionary program director 
for the Office of the District Attorney for New Orleans. You 
are recognized.
    [The prepared statement of Mr. Middleberg follows:]
    [GRAPHIC] [TIFF OMITTED] T1622.008
    
    Ms. Mumm. Thank you, Congressman Mica, Congressman Vitter, 
and distinguished guests.
    One of the major concerns that many have expressed about 
drug testing of high school students is the intent of the 
testing. Once persons understand the testing is designed to 
assist and not punish our youth, the second-most common concern 
is that of the availability of treatment. In New Orleans, this 
is a paramount issue to administrators, principals, counselors 
and parents.
    As a 19-year substance abuse professional, I am pleased 
that these issues are raised as it underscores the recognition 
that a ``Just say no'' policy of addressing persons who abuse 
and are addicted to drugs is over-simplistic, or that a zero 
tolerance school policy, in and of itself, is not sufficient to 
stop drug use.
    Drug abuse is not just a criminal justice issue. It is one 
of the major public health issues of the day. According to a 
1999 Monitoring the Future Survey, 23 percent of U.S. high 
school seniors--that is almost 1 in 4--reported use of 
marijuana in the 30 days prior to the survey. The 12th annual 
PRIDE survey reported that, of the 25.6 million students in 
grades 6 to 12, over 4 million are monthly users of illicit 
drugs. And as a point of reference, this is double the number 
of people who are incarcerated in our prisons today. In this 
same study, it was determined that half of those who reported 
bringing a gun to school also reported daily illicit drug use.
    In a federally funded needs assessment study in Louisiana, 
for Orleans and the surrounding parishes of Jefferson and St. 
Barnard, the number of students, teens, that needed drug 
treatment or intervention for illicit drug use is 8,500 teens. 
There is no question that there is a great need for treatment 
services for our youth, many of whom are unidentified. Not all 
students who use drugs are dependent or in need of treatment. 
Drug use varies considerably from initial experimentation to 
chronic, progressive addiction. If the young person has 
positive experiences from drug use with little consequence or 
threat of detection, the chances of additional use are 
enhanced, particularly if there is little discomfort or 
dissonance with that person's internal values, including those 
values inculcated from the school environment.
    Adolescents can and do become dependent on drugs. Because 
the young body is still developing, drug use has more physical 
impact on adolescents than on fully grown adults. It is 
therefore particularly important to provide incentives to keep 
our young people from trying drugs in the first place. I have 
heard addicts report, for example, that within their first few 
times ingesting cocaine, they felt hooked. The later a person 
begins drug use, the less likely he or she will develop a 
problem with it, and the earlier a drug problem can be 
identified and treated, the more likely a successful outcome. 
Drug testing provides both the deterrence effect and the means 
to identify youth in need of services.
    Our office suggests the following policy approach toward 
students who test positive. The principal should confidentially 
meet with the parents and the student to review the results. 
The family should be given resource options to seek a 
professional clinical assessment of their child. This interview 
is necessary to determine where on the continuum of drug 
involvement that child is, so that any recommendations can be 
individually tailored. These may range from drug education 
classes or family counseling to more extensive outpatient and 
inpatient treatment. Intensive treatment will be necessary for 
those students abusing or dependent upon drugs, as they may be 
experiencing alterations in brain chemistry and other organ 
functioning, along with the mental, the psychological and the 
social impairments. These young people need the support and 
tools to change.
    It is therefore imperative that any schools that undertake 
a drug testing program collaborate with prevention and 
treatment specialists in designing their programs. In our 
efforts here, we are working extensively with the Council on 
Alcohol and Drug Abuse, and other local treatment providers to 
assure a comprehensive package of treatment alternatives. We 
are also seeking funding for additional expansion of treatment 
services.
    In summary, drug testing offers vital, effective 
opportunities to identify and provide needed assistance to 
children who may otherwise go unattended until more destructive 
consequences occur. Arrests, suicide attempts or other symptoms 
that reflect significant impairment to their developmental 
growth can lead the adolescent to lose sight of their unique 
talents and potential. These programs are solid investments in 
our precious human resources.
    [The prepared statement of Ms. Mumm follows.]

    [GRAPHIC] [TIFF OMITTED] T1622.009
    
    [GRAPHIC] [TIFF OMITTED] T1622.010
    
    [GRAPHIC] [TIFF OMITTED] T1622.011
    
    [GRAPHIC] [TIFF OMITTED] T1622.012
    
    [GRAPHIC] [TIFF OMITTED] T1622.013
    
    Mr. Mica. Thank you for your testimony, and we will begin 
the round of questions. And I will start with Mr. Connick, the 
district attorney.
    To date, Mr. Connick, the Supreme Court has ruled that drug 
tests are constitutional, but in a limited example. And I 
believe that is for those involved in athletics or extra-
curricular activities. You are expanding this program this 
fall, I understand, from a private school to a public school. 
Do you feel that you will be subject to a challenge here with 
the institution of that from private to public sector, and do 
you feel that that program can continue or be legal under the 
guidelines already established by the court?
    Mr. Connick. Yes, I do, Mr. Chairman. The examples set by 
De La Salle and other schools that are drug testing now 
established the procedure of how to do to it. Yvonne Gelpi and 
the other school principals spent a lot of time inviting 
questions about the program. They spent a lot of time laying 
the groundwork. And that same policy was adopted by Mr. Vincent 
Nzinga, who is a principal at one of our largest public high 
schools in the city. And Ms. Geraldine Walker, who is the 
principal of the PTA at that school spent a lot of time with 
the parents over there, and they sent out all kinds of 
correspondence and had meetings and discussions. And we are 
told that a substantial number of the parents--which, 
incidentally, coincides with the data gathered by fact finders 
regarding the support that exists for this drug testing--most 
of the parents want it.
    Some of the students who are going to be tested under the 
3-percent testing plan, that has been promulgated by the 
Orleans Parish School Board, but everyone is going to be 
voluntarily tested. They will use hair. We have obtained a 
grant for a 2-year period of testing, approximating $165,000.
    Mr. Mica. So this is a voluntary----
    Mr. Connick. It is going to be voluntary.
    Mr. Mica. And yours is mandatory, Ms. Gelpi?
    Ms. Gelpi. Yes.
    Mr. Mica. So it is a condition of----
    Ms. Gelpi. Enrollment.
    Mr. Mica [continuing]. Enrollment at the private school?
    Ms. Gelpi. Yes.
    Mr. Mica. Is there a way to make yours mandatory, or at 
this time it is strictly voluntary?
    Mr. Connick. I would hope to think so, but I would really 
walk softly in that area, to avoid challenges.
    Mr. Mica. Do you have any type of a release that your 
students' parents sign, Ms. Gelpi?
    Ms. Gelpi. It is part of the application process.
    Mr. Mica. It is?
    Ms. Gelpi. And it is in the student handbook.
    Mr. Mica. And are you anticipating a similar type of 
release or approval from parents or guardians?
    Mr. Connick. Yes, Mr. Chairman. Permission has to be given 
to drug test the students. They have to sign--in order to 
participate in athletic activity, they must sign a consent 
form. They may be selected randomly to be tested, but everyone 
else voluntarily will have to sign a release. Parents will have 
to do it, and students will do it.
    Mr. Mica. I understand, Ms. Gelpi, here at this school, the 
parents pay for this, and it costs about $50. Is that correct?
    Ms. Gelpi. Yes.
    Mr. Mica. And how would you pay for this public program?
    Mr. Connick. We, fortunately, have been able to get some 
money from some private foundations to do it. But we would like 
to expand it. I do not think it is going to be expanded without 
your support, without the support of Congress.
    I know there are some bills in Congress right now 
advocating drug testing in public schools, but we really need 
for you to support what we are proposing here today, get behind 
a project and the cost I think would be minimal. But the 
funding, I think, would give us a chance, enable us to 
demonstrate that it can be done, and that it is successful and 
is, in fact, a deterrent.
    Mr. Mica. I am not certain of the local school structure. 
We have, where I come from, a school superintendent, school 
board, and they would pass approval of institution of any type 
of a program like this. Do you have a similar structure, and 
has this come before that board, the public board, and received 
its approval?
    Mr. Connick. I think that the approval has to come from the 
school board. But what I would like to see is some funding made 
available to us, and let us offer to any school that wants to 
participate on a voluntary basis in the drug testing program, 
similar to Douglass, I think you will find an overwhelming 
response from the parents in this area.
    Mr. Mica. Well, we can put some caveats on Federal money, 
we are well-known for that, particularly in the education area. 
But one possibility would be, if you receive Federal funds, 
that you institute some type of a drug testing program. What 
would be your response to a congressional mandate like that, 
Mr. Connick?
    Mr. Connick. If I understand you correctly, if we are 
offered the opportunity to do that?
    Mr. Mica. No, make it a condition. You receive Federal 
funds, and you must come up with a program, mandatory.
    Mr. Connick. Oh, that is done. We already have----
    Ms. Gelpi. He is saying if they tied a string to the 
Federal funds, that you had to drug test.
    Mr. Connick. Right. I do not know, along educational--would 
educational--I do not know about that.
    Mr. Mica. You want the Federal money, but should we have 
Federal guidelines----
    Mr. Connick. I think you should have guidelines, 
absolutely.
    Mr. Mica. Ms. Gelpi, have you had any challenges to the 
program, court challenges?
    Ms. Gelpi. No.
    Mr. Mica. No. Now what about those students who are found 
with positive test results? Are they retested?
    Ms. Gelpi. Yes. When a student is found positive, there is 
one person in the school who knows that, and that person 
contacts the parents and the student, and they come in for a 
conference with--it happens to be the dean of students in our 
school. And it is quite often the first time a parent even 
hears that there is a possibility that the child is using 
drugs, and generally the parent denies it immediately, and it 
takes a little while for the process to work.
    But at the end of the conference, the recommendation is 
that the family seek some kind of counseling. Some of the 
schools require it. We just suggest it. We have counseling 
staff here, 1 per every 200 students, and then there are 
outside agencies. So the parents are encouraged to get the 
counseling.
    In 90 days, the student is retested, and so they have 90 
days to clean up their act.
    Mr. Mica. And what about after the 90 days, if the retest 
positive?
    Ms. Gelpi. If they retest positive, we ask them to withdraw 
from the school.
    Mr. Mica. Have you had to institute that policy?
    Ms. Gelpi. Yes.
    Mr. Mica. You have?
    Ms. Gelpi. Yes.
    Mr. Mica. So it has been an effective deterrent in reducing 
the incidents, and then you have had instances where they have 
either not sought treatment or counseling or, as you said, 
cleaned up their act. And are asked to leave.
    Ms. Gelpi. In our first year, we had 10 percent of those 
who tested positive retest positive the second time. In the 
second year, it was only 5 percent. But I have asterisked on 
the page with the statistics, eight students chose to leave the 
school after the first positive test, rather than remain in the 
school and know that, if they kept doing drugs, that they were 
going to get caught the second time. So that 5 percent is not a 
valid statistic.
    Mr. Mica. How would you enforce the public school program? 
I think you had mentioned that you want to have some type of 
treatment or counseling.
    Mr. Connick. Yes.
    Mr. Mica. Would there be any enforcement mechanism? You are 
not really going to be able to throw them out of school or ask 
them to withdraw.
    Mr. Connick. No, but I think there are sanctions--no, you 
cannot do that. You are right. But I think sanctions would be 
available, would be made available to have alternative schools 
available to those students who regularly use drugs or refuse 
to stop using drugs. That is being worked on now with Douglass. 
The school board has a policy of suspending athletes if they 
test positive. Our proposal for Douglass was to let them 
continue to play.
    But there are sanctions that can be included in the 
program, and hopefully alternatives that will stop and reduce 
the drug demand. If you have someone who continues to use 
drugs, I think, you know, that is a basis for expulsion. But 
that would be something that the Orleans Parish School Board 
would have to decide.
    Mr. Mica. Mr. Middleberg--did you want to respond, Ms.----
    Ms. Gelpi. Yes, may I add something? When we met here, 
Harry, you might remember, we had the Orleans Parish School 
Board and several other groups back in the library when we 
first proposed to them about the drug testing. And that 
question did come up. And I am not sure of all the terminology, 
but in the public schools, there is a disciplinary process, and 
there are levels. And they felt that it would be easy enough to 
move the child through already-established levels, where then 
they would go to alternative schools. It would just fit in with 
their system, and they would not have to throw them out, so to 
speak.
    Thank you.
    Mr. Mica. Mr. Middleberg, when were you in school here?
    Mr. Middleberg. I graduated in the class of 1999, which 
would have been last school year.
    Mr. Mica. And were you here as--how old is the drug testing 
program; 3 years?
    Ms. Gelpi. Three years.
    Mr. Mica. Three years. Were you in school before the drug 
testing program?
    Mr. Middleberg. I was here both before and during.
    Mr. Mica. How available are drugs in this community to 
students?
    Mr. Middleberg. In the community as a whole, drugs are 
readily available to----
    Mr. Mica. What kind of drugs are available?
    Mr. Middleberg. Most likely, you could probably get your 
hands on your basic drugs, as marijuana and cocaine would be 
fairly easy to get your hands on. But other drugs that are 
tested for are a little less harder to get your hands on. I 
would not say that everyone had access to drugs, but if you are 
someone who is interested in drugs, you certainly will not have 
a problem finding drugs.
    Mr. Mica. And do you keep up your connections with students 
in the school?
    Mr. Middleberg. Yeah, I still have some friends that just 
graduated this year.
    Mr. Mica. Are drugs still readily available on the street 
here?
    Mr. Middleberg. Drugs are readily available in the 
community. Drugs are no longer readily available in this school 
at all, completely. That was stopped immediately when the drug 
testing program became into effect.
    Mr. Mica. Well, what was the reason for that? Was it being 
afraid of being caught?
    Mr. Middleberg. It was both afraid of being caught, it was 
the way the school approached the drug testing policy and how 
serious everything was. And the students that were selling 
drugs then left and decided that De La Salle was not the place 
for them, or they would not come around after school knowing 
that students at De La Salle were no longer available to do 
drugs, due to the fact that they would get tested and they did 
not want to leave school.
    Mr. Mica. I notice that this was part of a total drug 
program, is that correct?
    Ms. Gelpi. Yes. We had a program of drug education.
    Mr. Mica. Did you have, also, monitoring with dogs and 
things of that sort?
    Ms. Gelpi. No, we did not do that. We did bring the dogs in 
for show-and-tell, for our student assembly. It was extremely 
effective to have those drug-sniffing dogs, and the police came 
in with them. But we simply did it to make a point, that this 
was a tool available to us, if we chose to use it.
    Mr. Mica. So it was a drug education program?
    MS. Gelpi. Drug education program.
    Mr. Mica. Maybe you can describe that for the subcommittee.
    Ms. Gelpi. It is a combination of many different things, 
that is taught within the counseling department, taught within 
the religion department, taught in the health classes, in 
physical education, and also sometimes addressed in the science 
department in their courses.
    The thing about it is, kids know drugs are not good for 
you. They know they are harmful, they know they should not be 
doing it. But adolescents are risk-behavers, and some of them 
just want to take the risk, want to experiment, want to push 
the limits. So drug education was not enough.
    Mr. Mica. You had cited the statistic that 30 percent of 
the students were offered drugs. Was that before the program 
started, and have you done any subsequent assessment?
    Ms. Gelpi. We have not done a followup study, other than an 
informal one. We put that together with a doctor from--a social 
work doctor, a Ph.D. doctor from, I think it was LSU came and 
did the survey. PRIDE, also--Rosemary told you about PRIDE. The 
organization PRIDE has a survey. And they came in, this group 
did, Risk Behavior, came in and tested all the students and 
asked the questions. It did not only deal with drugs, it dealt 
with suicide, it dealt with lots of different--alcohol, lots of 
different possibilities.
    And then we got the results back, about a year later, when 
we were well into the program. We did not need the survey to 
tell us what we knew. We knew we had students experimenting 
with drugs.
    Mr. Mica. How big a universe of the students are now 
involved in this? If we take in the private schools, you have a 
600 or 700 student population?
    Ms. Gelpi. We have 850.
    Mr. Mica. 850, and there are how many others?
    Ms. Gelpi. I would say most of the schools would be, let us 
say 1,000, in round figures. So nine schools next year--six 
schools this year, say 6,000 students. And then if you add the 
three more, 9,000 next year.
    Mr. Mica. I have questions for Ms. Mumm. You are involved 
in a diversionary program, and you deal also with students and 
young people who have first-time experience. Is it limited to 
first-time offenders?
    Ms. Mumm. Yeah, we started out as a pretty clean first-time 
offender program. But as we gained success with that, we took 
in more people with more arrest histories, in some cases with 
prior convictions, as long as the conviction was for a non-
violent offense, and it was some years ago.
    Mr. Mica. And what is your success rate?
    Ms. Mumm. We reduced recidivism by 75 percent. We do use 
urine testing and hair testing, and so we are able to really 
validate that when someone leaves our program, they have been 
drug-free. Urine testing, as Yvonne has mentioned is a very 
fallible system in terms of evasion. So even though we still do 
random urine testing, we like to have the verification through 
periodic hair tests that that person is remaining drug free. 
And I think it is a unique technology to have kind of a 90-day 
record, if the person has that much hair, to really affirm that 
that person has been drug-free. That is a unique part of the 
technology.
    Mr. Mica. Have you had any of the students that----
    Ms. Mumm. Yeah, actually, I have. There was one individual 
that had tested positive at De La Salle. I think there were 
some sanctions placed on that person--I do not want to reveal 
too much, obviously, for confidentiality's sake. He was 
subsequently arrested on a marijuana possession charge, came 
into our program and continued to test positive. And we had to 
terminate him from the program. He had various--well, he had a 
very extreme level of denial, as his family did, and he was not 
someone that was responsive, at least at this point in time, to 
the treatment intervention.
    Now when we terminate someone unsuccessfully, they go on to 
court and they are prosecuted. So whatever happened to that 
case, you know, if he was found guilty or pled guilty, then he 
would be placed on probation, and the subsequent sanctions 
would follow him.
    Mr. Connick. Mr. Chairman.
    Mr. Mica. Mr. Connick.
    Mr. Connick. Could I tag on to what Yvonne Gelpi said?
    She mentioned a survey. One of the things we do not know 
about teenagers and drug use is the effect or the impact of 
drug testing. PRIDE is presently conducting a survey at 
Douglass High School, and also at another high school that has 
volunteered to participate in this survey. We are going to find 
out, hopefully, what happens in these two schools, and what 
eventually occurs when testing is implemented at one school and 
not in another.
    And the people that we speak to are just so hungry for this 
kind of information. Yvonne's statistics, I think, are most 
revealing and most encouraging, but we want to find out more 
about treatment. And we do not know, we cannot measure 
precisely the need for treating young people with drug 
problems. We do not know the nature of that treatment that is 
needed, we do not know the extent of it. And by initiating this 
kind of a program, with the survey as part of that program, I 
think we should be able to identify and answer a lot of 
heretofore unanswered questions. And that is a vital part, that 
would be a condition that we would want to see imposed.
    Mr. Mica. Mr. Connick, a final question. You are involved 
in the criminal justice system here. Approximately what 
percentage of the cases coming before local prosecutors and the 
courts, judicial and law enforcement, are drug-related today?
    Mr. Connick. I would estimate conservatively 60 percent.
    Mr. Mica. Sixty percent.
    Mr. Connick. I might add that 65 to 70 percent of everyone 
coming into our parish prison, under the Drug Uniform 
Forecasting System that is in place tests positive, but they 
use urine. And you are not going to catch everybody. If you 
used hair to test----
    Mr. Mica. So you think it is even higher?
    Mr. Connick. I think it is, I would say 80 to 85 percent.
    Mr. Mica. Thank you. No further questions at this time. I 
yield to Mr. Vitter.
    Mr. Vitter. Thank you, Mr. Chairman.
    I want to followup on the constitutionality issue with Ms. 
Mumm and Mr. Connick, perhaps, and just get it clear in my 
mind. There is no question that a non-public institution like 
De La Salle can do anything it wants and just make it a pre-
condition of enrollment, is that right?
    Ms. Mumm. Correct.
    Mr. Vitter. And so the only Constitutional question is in a 
public school, and the Supreme Court has validated what, 
exactly, random testing for athletes?
    Ms. Mumm. Right. In the Vernonia case, athletes, that 
activity was seen as not a right. It was an activity that 
people could select to go into, but they were not entitled to. 
And in that situation, the school, the public school, could 
require that they participate in a drug testing program.
    Now with Congressman Mica's earlier question, if I can 
attend to that in terms of sanctions in a public school, when 
it is under an athletic situation, then you can use that 
circumstance to require the athlete to attend treatment in 
order to remain on the team, or get back on the team. And that 
is a good use of the course of leverage that a school has to 
see to it that treatment is enforced, or in place, I guess.
    And then the 7th Circuit, Indiana case involved extra-
curricular activities, so it was broadened beyond the athletic 
activities. And that encompasses, again, any school involvement 
that is not a right, but a privilege, I guess, to participate.
    Mr. Vitter. Right. You happen to remember those two cases. 
Were those programs involved random or universal for the 
population, do you remember?
    Ms. Mumm. Actually, I am not sure about that.
    Mr. Vitter. I am just thinking out loud, I do not know why 
it would make any difference in terms of constitutionality. It 
seems to me, if it would be OK for random, it would be OK for 
universal.
    Ms. Mumm. I would think so.
    Mr. Vitter. And has there ever been a case, for instance, 
mandating testing in a public school, school-wide, but if it 
were, say, a magnet school, so therefore entrance to that 
school was not necessarily a right, and there would be other 
public school options?
    Ms. Mumm. That is an excellent question, and I am not 
clear. I do not know if somebody in----
    Mr. Vitter. It probably has not been tested? It has not 
been tested, that you know of?
    Ms. Mumm. Not that I know of, but I think it is a good 
point.
    Mr. Vitter. I guess the line seems to be that you can tie 
it to anything, except the right to an education.
    Ms. Mumm. Right. Correct.
    Mr. Vitter. You can tie it to athletic involvement, you can 
tie it to extra-curriculars, maybe you can tie it to going to a 
particular school when there are other school options 
available.
    Ms. Mumm. Right. And I believe another school in a parish 
nearby is wanting to do it for students who drive to school, 
that that is, again, a privileged activity and not a right.
    Mr. Connick. Mr. Vitter and Mr. Chairman, that is a good 
question. And one of the things that you mentioned yesterday, 
Mr. Chairman, at the meeting, was that illegal drug use, drug 
abuse, is a national problem. And it is. And I think that we do 
a lot of things in the interest of national safety and health 
and welfare that would perhaps justify the testing of students. 
A lot of folks who--not a lot, some of the folks, mainly the 
ACLU who objects to testing students, do not seem to be able to 
afford an answer when you ask them, well, every time you board 
a commercial airline, you give up what I consider to be one of 
the most sacred rights of the American citizen, and that is a 
right to privacy. The right not to be searched, and the right 
not to stand with your arms outstretched and have someone go 
through your pockets, or empty your pockets and give you a pat-
down completely. And to me that is more invasive than taking a 
little bit of hair from somebody's head.
    So I think if perhaps exploration is deserved and needed in 
the area to find out what is in the best interest of this 
country, what is the best interest from a health and welfare 
standpoint, and a safety standpoint of every student and every 
citizen in this country?
    Mr. Vitter. Mr. Connick, I also wanted to followup. I think 
we mentioned the relatively new Louisiana High School Athletic 
Association Program. How is that going to be implemented 
initially, and what direction would you like to see it move in?
    Mr. Connick. I am not at all impressed. I like the idea the 
principals of Louisiana, by a very narrow vote about a year and 
a half ago, voted to have all of the schools come up with a 
drug testing program, with a policy.
    Mr. Vitter. For the athletes?
    Mr. Connick. I am sorry?
    Mr. Vitter. For the athletes.
    Mr. Connick. Yeah, for the athletes. And some of the 
schools came back with the program that--as did our Orleans 
Parish School Board, that said, we are going to test 3 percent 
of the students. Well, I think that is insulting to the concept 
of drug testing, you know. You have 100 percent of De La Salle. 
The De La Salle students, the athletes over here and everyone 
engaging in extra-curricular activity, competitive and non-
competitive, must be tested. And only 3 percent in our Orleans 
Parish schools, and in East Baton Rouge Parish.
    So I am not very impressed with the response that the 
Louisiana High School Athletic Association got. However, I 
think that when they see what is happening in those schools 
where drug testing is taking place, they are going to say, we 
need this. And I think the parents are going to demand this, 
that we want the same protection for our children that De La 
Salle gives, and these other schools give. We want our children 
off of drugs, and do what you have to do to get it.
    Mr. Vitter. And has there been much discussion yet in the 
Jefferson Parish public system?
    Mr. Connick. Yes.
    Mr. Vitter. And where is that heading?
    Mr. Connick. Yes. Paul Connick, Jr., my nephew, we enlisted 
his support to get going out there. The people in the public 
school system of Jefferson Parish have told us that, you get us 
if you get the money for us, we will institute a meaningful 
drug testing program in Jefferson Parish, where they need it.
    Mr. Vitter. And so they have the details worked out, in 
terms of what population would be tested? Would it be all extra 
curricular students?
    Mr. Connick. I think they have something in mind that they 
would test everybody who could possibly be tested, and use a 
volunteer basis for the rest of it. And we have worked on that 
for a number of months.
    Mr. Vitter. OK. And Mr. Middleberg, I want to ask you about 
a really interesting comment you made was, if I understood it 
right, that this policy at De La Salle really gave a lot of 
students a way out, an easy way to say no, and to avoid the 
issue and to push back the peer pressure. I wanted you to 
elaborate a little bit on that.
    Mr. Middleberg. Correct. Basically what I was saying was, 
if you are in an environment where you have students from other 
schools or students that are using or under the influence of 
drugs, you are going to be pressured into the fact that you 
might end up trying drugs for the first time. And the fact that 
you are drug tested is going to give you an easy way to just 
say, no, I cannot, I get drug tested at school, and then it is 
over with. Opposed to having to say no, and then you are going 
to have 40 people saying, come on, try it. It is just an easier 
way to say no, and it kind of just stops there.
    Mr. Vitter. Do you think there are a lot of students sort 
of relieved to be given that way out?
    Mr. Middleberg. I am positive that there are a lot of 
students that have been given that way out, because there are a 
lot of students that have problems saying no. But now they have 
to say no or they are going to hurt themselves even more. So 
they really have a good reason now.
    Mr. Vitter. And if you, and perhaps Ms. Gelpi, too, could 
just explain in a little bit more detail, how do you think it 
changed the environment at this particular school, or the 
surrounding neighborhood, or you know, between when it was 
begun and a year later, what sort of change did you see day-to-
day?
    Mr. Middleberg. As Ms. Gelpi said when she was speaking, 
just the overall performance of the students, as far as 
arguments, fighting, disciplinary actions that had to be taken, 
decreased overall, and you could really tell. After school, 
there were students that would come around from maybe other 
schools and pick students up, and those were the ones, maybe, 
that would be bringing drugs into the area. And that basically 
was all gone, and everything really calmed down after the drug 
testing came in, and it was more of a quiet place than a rowdy 
place.
    Ms. Gelpi. I would like to comment.
    Mr. Vitter. Sure.
    Ms. Gelpi. Congressman, if you do not mind.
    I want to tell you, first of all, an anecdote from a 
student who was in a class of mine. And this happened when he 
was in seventh grade. This is responding to the peer pressure 
problem. He wore a Band-Aid in seventh grade on his arm to 
school every single Monday, and he told his peers that his 
father was drug testing him, and that is why he could not do 
drugs. I thought that was a real creative way to take an answer 
to peer pressure. But that is how intense it is. It is really 
hard.
    Adolescents have a strong need to belong, and to stand 
apart from the crowd. I mean, you would not be in the positions 
you are in if you succumbed to peer pressure, you are able to 
stand apart. But adolescents very rarely are able to step back 
and say, no, I will not do that. And this does give them 
permission to do that.
    The other response I want to make, I did go to speak to 
Terrebonne Parish District Attorney Joe Waites. You might want 
to contact him, because I know that their school board--I spoke 
to the whole school board, this was probably a year ago. I do 
not know where they are in their process, but I know they were 
looking very strongly at implementing it in their schools.
    Mr. Vitter. Right. Thank you, Mr. Chairman.
    Mr. Mica. Just a followup question for Mr. Connick. We 
talked briefly about Federal guidelines. It appears that this 
type of testing might be something that we could take a serious 
look at funding on a nationwide basis. But you said, we may 
need some Federal guidelines. What would you suggest, how would 
you structure this?
    Mr. Connick. I think you should begin by testing as many 
students as you can, legally. That would be students engaging 
in all kinds of extra-curricular activity. I think you would 
want to solicit volunteers for the program, have the testing 
done voluntarily. I would use hair. I would test all of those 
students in that group that I mentioned, and would require a 25 
percent followup and a retesting randomly, and a retesting of 
everybody who tested positive. I would require that there be 
confidentiality, I think that is vital to the program. I would 
also require that anyone testing positive, their parents have 
to be notified, or guardians have to be notified and brought 
into the discussion. And I would make available and require 
that there be money for counseling and treatment.
    I doubt that, if any prolonged treatment would be necessary 
in the case of students, of that age, but you may need some 
intensive--some counseling and maybe some in-house. But I would 
provide for those things and say, this is what is going to 
happen, if you participate.
    I would also want some record to be kept. Yvonne Gelpi and 
the other schools are keeping, I think, remarkably good records 
on what is happening to the students in the school. Who used 
before, how many tested positive and what happened. And I think 
that I would want a survey similar to the PRIDE surveys that 
are going on here now, would want that included for the future 
and for treatment purposes, and for you, as a representative of 
us, to measure the need that we really have in this area. 
Because I do not think we know, I do not think we have any 
concept of the reality of that situation, yet. It has just 
never been done. What do we need to treat our children who have 
drug problems? How much counseling do they need? How extensive 
should it be? And those are things that I think we could find 
out by this.
    Mr. Mica. Finally, a question of random versus mandatory, 
and participation for everyone, what would be your 
recommendation based on your experience, Ms. Gelpi?
    Ms. Gelpi. I would definitely suggest it be for everyone. 
And if you would look on page 2, one of the statistics that we 
found in our first year was that 65 percent of the males who 
tested positive were not involved in any activity. So 
therefore, if you test the athletes, and you test those 
involved in activities, 65 percent of those who tested 
positive, males, were not involved; 89 percent of the females 
were not involved in any activity. So I think it is really 
important.
    There are a couple of other statistics on that page. A lot 
of people think that it is the working class people, lower 
class people, blue-collar people whose children are going to be 
most likely to take drugs. That is not what is supported in our 
statistics. It is the children who come from the professional, 
upper-class families where they have the money and the 
wherewithal to get the drugs. That was 83 percent of the 
students who tested positive were from professional families, 
opposed to 17. And the other statistic that I found very 
interesting, you always hear about the poor single mom raising 
her children by herself, and think that maybe those are the 
kids that might be involved. 59 percent of them came from two-
parent family homes, and 41 percent from single-parent homes.
    But I think the most telling statistic is, we have always 
known in education, you need to get your children involved in 
activities, and this statistic supports that. So I would say 
mandatory, simply because you will catch everybody and put the, 
you know, burden on every child.
    Mr. Mica. Mr. Connick, you wanted to comment?
    Mr. Connick. No, I agree with that. I think the gathering 
of this information is vital, and I say good morning to 
Congressman Jefferson. He has been, incidentally, very open and 
receptive to these appeals that we have made to him, and I want 
to publicly acknowledge his support for what we are doing.
    Mr. Jefferson. Thank you, Mr. Connick.
    Mr. Mica. I am pleased that we have been joined by our 
colleague, Mr. Jefferson. We have just finished, Mr. Jefferson, 
questions for this panel. I would be pleased to recognize you 
at this time, if you had an opening statement or comment. You 
are recognized, sir.
    Mr. Jefferson. Thank you, Mr. Chairman. I want to thank you 
and Mr. Vitter for the work you are doing in this area, 
particularly all of you for taking the time to come down here. 
I hope we have the chance to extend to you our usual 
hospitalities before you leave the city.
    But in any event, I know how important this is to us, and 
how important it is to you, and what a place this issue takes 
in your life and in your life's work.
    I want to congratulate our District Attorney for his 
continued, sometimes lonely battle in this area, trying to find 
a way to help families come to grips with trouble that their 
children are having and they do not have the slightest idea 
what it is. This whole issue about drugs and the pervasiveness 
of it escapes us because we sometimes think that it is somebody 
else's problem. And it really can be in any family at any time, 
in some family living in a mansion, some family living in some 
run-down location. They all are subject to the same sorts of 
risks out there. And parents need to know and be better able to 
manage these problems with their children.
    We ought to find the least invasive way that we can to give 
parents more control over what is happening in their children's 
lives, and to help their children correct whatever they are 
experiencing in way of getting involved in illegal drug use, 
before it is too late to bring them back into mainstream 
society, before they are lost to us.
    I know that there is nothing easy about this issue, there 
are all sorts of implications, constitutional implications and 
otherwise. But I think what Mr. Connick is doing is trying now 
to find a way to educate parents and educate the public about 
how important this is, and how useful it is, and how critical 
it is, to get parents and families and school personnel all 
working together to try to find a way in a cooperative spirit 
to get after this problem, and to help our children.
    I again applaud our chairman for his interest and Mr. 
Vitter for his interest, and especially Mr. Connick and those 
who are at the table for taking the time and the interest to 
help to get us guided in this way. I hope that we can find some 
solutions here that will have our community joining in strong 
partnership with law enforcement and parents and families with 
their schools, so that we can get at this problem once and for 
all.
    As you well know, Harry, unless parents know, they cannot 
take effective action. But once they are empowered with 
information, then they can help to control the situation in 
their homes. This is an effort to give parents information they 
need to help their children make better decisions, and to help 
bring families out of crisis. I am proud to be associated with 
it, and I certainly hope that we can find a way together to 
think through this thing and to put it in a position where it 
can be helpful to more families.
    Mr. Mica. Thank you, Mr. Jefferson. As I said, we had just 
heard statements by each of the first panelists--Mr. Connick, 
Ms. Gelpi, Mr. Middleberg, Ms. Mumm--relating to both the drug 
testing program that is going on in the private sector and also 
anticipated in the public sector here. And Ms. Mumm described 
some of the elements of the diversionary program that she 
directs here with the District Attorney's office.
    Before I dismiss this panel, based on your knowledge of 
these programs, did you have any questions for the panelists at 
this time?
    Mr. Jefferson. I hate to come at the end and ask a 
question, because it probably has already been asked, and I end 
up with some redundancy here.
    Mr. Mica. Go right ahead.
    Mr. Jefferson. I just wanted to ask this one thing. How 
broadly accepted, Mr. Connick, is the effort you are making now 
in Orleans Parish and, I think, in Jefferson Parish? Are you 
finding more interest and more acceptance now? I know you have 
been at this for a good while, and I think it may now bear some 
fruit. So I just wanted to know if you are making real progress 
with it?
    Mr. Connick. A lot of progress with different people, 
elected officials and judges; 6 or 7 years ago, we had a lot of 
opposition to it. Thanks to a group called DOTS, Drugs Off The 
Streets, a group of women, volunteer women, and programs that 
we have had, conferences and seminars to which all of the 
principals of every high school in this area were invited. And 
I think because of what is happening in the schools here now, 
the acceptance rate by parents of drug testing of their 
children has risen to--I think CADA just did a study, 78 
percent, I think. Is that right, Rosemary?
    Ms. Mumm. Yeah, close to that.
    Mr. Connick. It is becoming widely accepted, according to 
the polls that we are seeing.
    And Douglass High School, they tell us over there that the 
parents of those children in Douglass, most of them want it.
    Mr. Jefferson. I know that our U.S. Attorney is here this 
morning as well, and people who represent his office to show 
interest in this subject.
    One last thing, there has been some discussion--and you and 
I have had this--about the effectiveness of drug testing as a 
deterrent, particularly the one that uses the hair-clipping 
method. I agree with you that, if we can get this program 
going, some effectiveness is better than no effectiveness. And 
if you wait for all the answers to be gotten, get everything 
pinned down, I suppose we may be waiting until the cows come 
home to get at this problem.
    But I think there are some disagreements about whether this 
method of drug testing is effective, or whether there is a 
better way to do it. Can you respond to those questions?
    Mr. Connick. I think drug testing by hair analysis is 
probably the most effective method that we know about. We use 
urine in our diversion program to complement hair, but the 
basic approach we use is to use hair. It is reliable, it is 
clean, less invasive and it works.
    Mr. Jefferson. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Good questions. And they had not all 
been addressed.
    We appreciate, again, your participating with us this 
morning.
    Mr. Vitter, did you have any final questions?
    Mr. Vitter. No, I have no more. Thank you.
    Mr. Mica. I have finished. We are going to leave the record 
open for a period of 2 weeks for possible additional questions 
to the witnesses, and also for submission of additional 
testimony by those who wish to have statements made part of the 
record.
    So at this juncture, I want to again thank the principal 
and president of De La Salle High School here, for hosting our 
subcommittee today and this congressional panel. I want to 
thank each of our witnesses. This sounds like a very effective 
program. It sounds like it could provide a model that we could 
look at, not only for this area, but possibly the country and 
look toward this program as something the Federal Government 
could cooperate with State and local governments.
    I have only chaired this panel for a year and a half, and I 
am committed to find whatever works and whatever good examples 
of community-based programs that, again, are effective, that we 
can institute and model from. So I thank you for providing us 
with the background and information, and your success and some 
of the problems you have incurred with this program to date.
    At this time, I will excuse this panel, and thank you 
again.
    The second panel this morning consists of three witnesses, 
and I think we have a fourth individual who will be available 
for questions. George Cazenavette, he is a special agent in 
charge of the New Orleans field office for the Drug Enforcement 
Administration. Major Pete Schneider, he is the Counterdrug 
Coordinator for the Louisiana National Guard. Mr. David Knight, 
he is the director of the Gulf Coast HIDTA, the High-Intensity 
Drug Traffic Area. And I believe we also have Mr. Tony Soto, 
who is the Deputy Director of the HIDTA, and with the Jefferson 
Parish Sheriff's office.
    Pleased to welcome all of these four witnesses and 
panelists. As I indicated at the beginning of this hearing 
today, this is an investigations and oversight subcommittee of 
Congress. We do swear in our witnesses which I will do in just 
a second.
    Also, if you have any lengthy statements, documents, 
information, data that you would like to be made part of the 
record, on the unanimous consent request through the chairman, 
that would be granted.
    At this time, if you would, please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative, let 
the record reflect, and I'm pleased to welcome this panel.
    We will start out with the special agent in charge of the 
New Orleans field office of the Drug Enforcement Agency, George 
Cazenavette. You are welcome and recognized, sir.

STATEMENTS OF GEORGE CAZENAVETTE, SPECIAL AGENT IN CHARGE, NEW 
 ORLEANS FIELD OFFICE, DRUG ENFORCEMENT ADMINISTRATION; MAJOR 
  PETE SCHNEIDER, COUNTERDRUG COORDINATOR, LOUISIANA NATIONAL 
GUARD; DAVID KNIGHT, DIRECTOR, GULF COAST HIDTA; AND TONY SOTO, 
               DEPUTY DIRECTOR, GULF COAST HIDTA

    Mr. Cazenavette. Thank you. Congressman Mica and 
distinguished members of the subcommittee, I am pleased to have 
the opportunity to appear before you today to discuss the 
growing dangers and concerns of drug traffic in the New Orleans 
metropolitan area. I would first like to thank the subcommittee 
for its continued support of the DEA and overall support of 
drug law enforcement.
    As you are all well aware, the alarming spread of illegal 
drug abuse by our youth is having a profound effect in 
communities throughout the United States, including the New 
Orleans metropolitan area. It is fair to say that increasing 
use of such drugs as Ecstasy and methamphetamine by our youth 
is quickly becoming one of the most significant law enforcement 
and social issues facing our Nation today.
    Between 1998 and 1999, past-year use of Ecstasy rose by a 
third amongst 10th-graders, and 56 percent amongst 12th 
graders. I have submitted a more detailed statement for the 
official record.
    Mr. Mica. Without objection, that entire statement will be 
made a part of the record. So ordered.
    Mr. Cazenavette. Thank you, sir.
    In carrying out its mission, DEA is responsible for the 
investigation and prosecution of criminals and drug gangs who 
perpetrate violence in our communities and terrorize citizens 
through fear and intimidation. The drug organizations operating 
today have an unprecedented level of sophistication and are 
more powerful and influential than any of the organized crime 
enterprises preceding them. The leaders of these drug 
trafficking organizations oversee a multi-billion-dollar drug 
industry that has wreaked havoc on communities throughout the 
United States.
    As many of you know, in addition to a rise in heroin use 
and abuse, New Orleans is experiencing an alarming increase in 
club and designer drug use by teenagers and young adults in 
night clubs, rave venues, parties and drinking establishments. 
No place is this more evident than at the rave functions that 
have become so popular throughout the New Orleans area.
    These rave functions, which are parties known for loud 
techno music and dancing in underground locations regularly 
host several thousand teenagers and young adults who use MDMA, 
LSD, GHB, Ketamine and methamphetamine, alone or in various 
combinations. The age range for raves in the New Orleans is 15 
to 24 years, with the mean age range between 18 and 22. This 
poly drug abuse has been supported by information acquired 
during interviews with hospital emergency rooms, physicians and 
local law enforcement officials.
    Club and designer drugs have become such an integral part 
of the rave circuit that there no longer appears to be any 
attempt to conceal their use. Rather, drugs are sold and used 
openly at these parties. Traditional and non-traditional 
sources continue to report flagrant and open drug use at raves.
    Intelligence indicates it has also become commonplace for 
security at these parties to ignore drug use and sales on the 
premises. In 1998, several teenagers died in New Orleans from 
overdoses while attending rave parties. Tragically, many teens 
do not perceive these drugs as harmful or dangerous. Ecstasy is 
marketed to teens as a feel-good drug and is widely known at 
raves as the ``hug drug.'' In fact, misperceptions among teens 
has led to one local ambulance reporting at least 70 requests 
for emergency medical assistance in the past 2 years, hospital 
officials throughout the New Orleans metropolitan area have 
reported that as GHB has grown in popularity among raves, 
overdoses have increased significantly.
    A little over a year ago, three 14-year-old girls in 
Jefferson Parish used a product containing GBL, and were later 
admitted to a hospital after being found lying unconscious in a 
driveway. In 1998, Ketamine, also known as ``Special K,'' was 
responsible for three deaths in New Orleans.
    While attempting to direct enforcement efforts to avert 
such tragedies, the New Orleans field division has recognized 
that such efforts are different from those required to combat 
other illicit drugs such as cocaine and heroin. This is largely 
due to the age of the distributors and the consumers alike, as 
well as the venue where the drug transactions typically occur.
    Of particular note, one recent MDMA investigation resulted 
in the arrest of members of an organization who were 
transporting MDMA from Houston to be distributed in New 
Orleans, Miami and New York. Members of this organization were 
responsible for distributing thousands of dosage unit 
quantities of MDMA to high school and college students, 
primarily at rave functions in the New Orleans area. In a post-
arrest statement, one member of this organization stated that 
he was also selling MDMA to students at a local area high 
school. Another member of the organization stated that he 
distributed MDMA tablets at rave functions in New Orleans for 
about $10 to $15 a tablet. This individual further stated that 
he had distributed about 250,000 MDMA tablets in about 20 trips 
to New Orleans.
    In conclusion, DEA is continually working to develop and 
revise strategies to enhance enforcement effectiveness and 
aggressively develop investigations to dismantle significant 
drug trafficking organizations affecting the New Orleans area. 
We are confident that, with the dedicated and tireless efforts 
of all our employees, we will continue to successfully address 
not only existing drug problems, but be proactive in devising 
strategies to address the emerging trends in drug trafficking.
    To further complement our enforcement initiatives and in an 
effort to educate and alert the citizens of New Orleans, DEA 
frequently conducts drug-related training and workshops 
throughout the New Orleans metropolitan area. Over the past 
year alone, the demand reduction program has provided peer 
leadership in DWI programs in the area schools. Numerous 
workshops were offered to train teachers, parents, classrooms 
and youth leaderships, all of which were well received.
    This past March, 12 youths from the New Orleans 
metropolitan area attended a national drug leadership 
conference hosted by the Drug Enforcement Administration, 
Pensacola, FL. Next month, training is scheduled for 
coordinators in the Safe and Drug-Free Schools Program. All of 
these training opportunities and workshops provide the DEA a 
positive venue to educate the youth about the devastating 
effects and consequences of drug use and at the same time steer 
them toward a healthy and successful future.
    I thank you for providing me the opportunity to address the 
subcommittee, and look forward to taking any questions you may 
have on this issue.
    Mr. Mica. Thank you. And we will withhold questions until 
we have heard from everyone on the panel.
    Our second witness is Major Pete Schneider. He is the 
Counterdrug Coordinator for the Louisiana National Guard. 
Welcome and you are recognized, sir.
    [The prepared statement of Mr. Cazenavette follows:]

    [GRAPHIC] [TIFF OMITTED] T1622.014
    
    [GRAPHIC] [TIFF OMITTED] T1622.015
    
    [GRAPHIC] [TIFF OMITTED] T1622.016
    
    [GRAPHIC] [TIFF OMITTED] T1622.017
    
    [GRAPHIC] [TIFF OMITTED] T1622.018
    
    [GRAPHIC] [TIFF OMITTED] T1622.019
    
    [GRAPHIC] [TIFF OMITTED] T1622.020
    
    [GRAPHIC] [TIFF OMITTED] T1622.021
    
    Mr. Schneider. Thank you, Mr. Chairman. Congressman Vitter, 
Congressman Jefferson, good morning. I am Major Peter 
Schneider, Counterdrug Coordinator for the Louisiana National 
Guard Counterdrug task force. With me today is Captain John 
Michael Wells, the Drug Demand Reduction Administrator for the 
task force. I want to take this time to thank the committee for 
inviting me to present to you the outstanding programs the 
Louisiana National Guard is providing in the field of drug 
education.
    For over 200 years, the National Guard has been called upon 
by her country, State and community to assist in all types of 
emergencies, conflicts and crises. Ten years ago, the Nation 
once again called upon the National Guard to join the homeland 
defense in the struggle against the invasion of illegal drugs 
into our Nation and communities. The Louisiana National Guard 
answered that call and has been involved in counterdrug support 
since the beginning. The Guard's counterdrug task force 
provides soldiers and airmen to Federal, State and local drug 
law enforcement agencies, community coalitions and numerous 
other organizations involved in supply and drug demand 
reduction.
    Throughout Louisiana, soldiers and airmen of the task force 
are providing counterdrug support for supply reduction in areas 
such as intelligence analysts, linguistic support, case 
support, cargo mail inspection, aerial observation and 
communication support. In demand reduction, the task force 
provides support in areas such as mentoring, drug awareness 
education, coalition development, life skills training and 
curriculum development. We currently support over 50 Federal, 
State and local agencies with 120 soldiers and airmen. In 
fiscal year 1999, the Louisiana National Guard assisted the 
drug law enforcement agencies in the seizure of over $170 
million worth of illegal drugs, to include over 25,000 pounds 
of marijuana and over 8,500 pounds of cocaine.
    Although a large portion of our support is provided in the 
supply reduction efforts, we are moving more and more of our 
manpower and resources into demand reduction missions. Our 
supply reduction efforts have been extremely successful, 
however we realize the ultimate solution to the drug crisis is 
demand reduction, specifically prevention and education. And 
the place to start is with our children.
    Our drug demand reduction missions are currently reaching 
children and young adults throughout Louisiana. In fiscal year 
1999, we reached over 48,000 children and young adults through 
various programs. In addition to the full-time support of the 
counterdrug task force, the Adjutant General of Louisiana 
mandates that each National Guard unit in the State perform at 
least one drug demand reduction mission per year.
    The counterdrug task force is responsible for coordinating 
these missions to validate their purpose. And as a result, many 
of these units focus their projects on their local schools. 
Each year the task force receives hundreds of requests from 
schools, community coalitions and neighborhood groups wanting 
to participate in one or all of our programs. The most-
requested program we have, particularly from schools, is our 
ropes challenge course. The ropes course is a series of low and 
high-element obstacles that are sequenced in order of 
complexity to bring out specific learning objectives. Children 
from 9 years old to 18, in groups of 12 to 30, participate in 
this day-long adventure. Teamwork, communication and ingenuity 
are just a few of the skills the ropes course emphasizes.
    Trained Guardsmen facilitate the training and provide 
constant guidance and encouragement. The facilitators bring out 
the learning from the experiences by relating the lessons 
learned to real-life problems the young people will have to 
overcome. We currently have three ropes courses located 
throughout Louisiana with a fourth to be built by the end of 
this fiscal year. Of the four courses, two will have been built 
with assets seized from drug cases.
    Another program we are heavily involved in is Drug 
Education for Youth [DEFY], funded by the Department of 
Justice's executive office for Weed and Seed and sponsored by 
the Louisiana National Guard. DEFY reaches out to elementary 
and middle school children; 40 children ages 9 to 12, 
participate in a 5-day residential drug prevention camp. During 
the camp, students participate in a curriculum that centers 
around building self-esteem and positive attitudes. Guest 
speakers who are community role models are brought in to 
reinforce the message of drug prevention.
    After the residential portion, a 9-month mentoring phase 
with each child begins. Student and mentors participate in at 
least one activity per month for 9 months. The Guard provides 
the facilities, manpower, coordination, personnel and 
transportation. For 2 years, we have hosted the camp on Jackson 
Barracks.
    The Guard continues to partner with successful 
organizations in an effort to maximize our efforts. One 
successful organization is the New Orleans Council on Alcohol 
and Drug Abuse [CADA]. Our efforts with CADA are reaching 
middle school students in the New Orleans area. Through a 12-
week module, 1 hour per week, our Guardsmen team up with CADA 
personnel go into middle schools and present on topics such as 
self-esteem, peer pressure, gangs and violence, conflict 
resolution, decisionmaking and responsible behavior. We also 
discuss specific drug facts.
    An integral part of this program is pre- and post-testing. 
This testing allows us to measure knowledge, attitudes and 
behavior related to drug use and violence. The testing results 
are showing this program is making a successful impact on the 
awareness on drugs. Students are telling us at the end of the 
12-week module they feel confident that they will be able to 
make better decisions due to the knowledge they have gained 
from this program.
    Another successful organization is Rapides Safe and Drug-
Free Schools in Rapides Parish. Our Guardsmen are concentrating 
here on fifth and sixth-graders. Once again, we are going into 
the classroom in order to conduct drug awareness training. In 
addition to student training, we are also coordinating an 
effort here to conduct teacher in-service training on drug 
awareness and how to spot the signs of troubled students. In 
1999, our Guardsmen coordinated and participated in the first 
sixth-grade conference on respect geared toward reducing 
violence in schools.
    Our newest initiative is the high school drug awareness 
program. This intense 5-hour curriculum focuses on 11th and 
12th graders. The unique aspect of this program is that Army 
National Guard recruiters teach the course. After recruiters 
receive training on how to conduct this program, they go into 
the classroom and teach on topics such as alcohol, tobacco, 
cocaine, self-esteem and responsible decisionmaking. Post-
testing is also used to determine knowledge, behavior and 
attitudes toward drugs. Over 90 percent of the students in this 
program have found the course valuable.
    Our task force is approaching our drug demand reduction 
mission with science in mind. No longer can we afford to just 
show up in school in uniform, make a presentation and then 
leave. We are promoting programs with fact-based results. 
Through pre- and post-testing, surveying and interviewing, we 
are able to determine whether the programs we are using are 
having the desired outcome. We believe, and the statistics seem 
to support, the programs mentioned here are becoming effective 
tools in drug prevention education in schools. The National 
Guard Counterdrug Program has, for 10 years, been a 
tremendously successful program. Statistics have shown the 
impact the Guard has had on supply and addiction and drug 
demand reduction. However, with all of our successes, we still 
face a budget process that limits our ability to consistently 
offer successful programs to our communities.
    The President's No. 1 goal in the national drug control 
strategy is to educate and enable America's youth to reject 
illegal drugs as well as alcohol and tobacco. However, each 
year the President submits a budget that does not fully fund 
the National Guard's counterdrug programs. Full funding of the 
National Guard's program requires $192 million for fiscal year 
2001. The President's budget request for fiscal year 2001 is 
$152 million. The impact of a fluctuating budget each year is 
we are faced with taking Guardsmen off counterdrug duty because 
of insufficient funding. The solution to this instability is 
for the President and Congress to fund the National Guard's 
counterdrug State plans at the law authorization of 4,000 
troops in fiscal year 2001. This would require a $40 million 
increase over the President's proposed budget.
    Major General Landreneau, the Adjutant General of Louisiana 
is committed to the Guard's mission in drug prevention and 
interdiction. Through the full-time support of the counterdrug 
task force and the missions performed by the Louisiana National 
Guard, we will be able to eliminate this problem.
    Once again, thank you for the opportunity to speak to you 
today, and I will be happy to answer any questions that you may 
have.
    Mr. Mica. Thank you. And I will recognize next Mr. David 
Knight, and he is the Director of Gulf Coast HIDTA, High-
Intensity Drug Traffic area. Welcome sir, and you are 
recognized.
    [The prepared statement of Major Schneider follows:]

    [GRAPHIC] [TIFF OMITTED] T1622.022
    
    [GRAPHIC] [TIFF OMITTED] T1622.023
    
    [GRAPHIC] [TIFF OMITTED] T1622.024
    
    [GRAPHIC] [TIFF OMITTED] T1622.025
    
    Mr. Knight. Thank you. Good morning, Mr. Chairman, Mr. 
Vitter and Mr. Jefferson. Thank you for inviting me to testify 
today before this important subcommittee.
    I am here on behalf of the more than 280 officers, agents 
and Guardsmen from more than 50 law enforcement agencies, and 
the National Guard that participate in the Gulf Coast High-
Intensity Drug Trafficking Area program. We are aware of your 
work on these very important issues, and we thank you for your 
support.
    I also have submitted a lengthy statement.
    Mr. Mica. Without objection, your entire statement will 
made part of the record. Proceed.
    Mr. Knight. And I will summarize that statement briefly 
here.
    In many ways, the Gulf Coast represents the United States 
in microcosm. If something is happening in New York or Los 
Angeles, it will probably happen here as well, only on a 
different scale. And unlike some of the other HIDTA that can 
focus on one or two drugs at a time or one or two trafficking 
modalities, the Gulf Coast HIDTA is faced with the entire gamut 
of drugs and drug trafficking.
    We have a smuggling threat, we are a staging and transit 
zone, we face a drug distribution problem that affects other 
parts of the country as well as our own. Methamphetamine 
manufacture and trafficking is increasing dramatically, and 
marijuana production is a continuing issue. Cash businesses 
such as the casino industry help make us attractive to money 
launderers. We have national and local gangs, not just in the 
cities, but in the small towns as well, and the violence that 
goes with them.
    Cocaine and its derivative crack, remain our major problem. 
Marijuana imported and homegrown is easily found, and a 
continuing problem. Heroin use is on the rise, which to an old 
narc like me is particularly frightening. So-called club drugs 
as Mr. Cazenavette mentioned, things like Ecstasy, LSD, GHB are 
readily available at raves and on the street. And law 
enforcement authorities tell me that we are about to be overrun 
with methamphetamine.
    Just 3 or 4 years ago, we would hear of three or four 
clandestine methamphetamine labs in a year's time. Now we are 
hearing reports of hundreds. In 1999, Gulf Coast HIDTA 
initiatives participated in the dismantling of 44 clandestine 
labs, methamphetamine labs, and that just represents a fraction 
of the total. In Alabama, a non-HIDTA case began with the 
controlled delivery of some marijuana. Authorities there seized 
what I am told was the largest methamphetamine lab ever found 
East of the Mississippi, and 84 pounds of methamphetamine.
    Law enforcement agencies' commitment to attempt to deal 
with these problems is high. The resources available to them 
are not. Most of the agencies that participate in the HIDTA are 
under-staffed, under-funded and under-trained. Gulf Coast HIDTA 
is one of several programs designed primarily to help State and 
local agencies, but the task is great. Our program balances 
much-needed support for operational matters, with funding for 
operational infrastructure that is not normally available in 
agency budgets. When possible, the agencies build on existing 
structures or task forces. If necessary, they build new ones.
    As you know, the Gulf Coast HIDTA is composed of 12 
counties or parishes in Louisiana, Alabama and Mississippi. 
Fourteen initiatives house 22 collocated task forces that are 
designed to address specific parts of the threat. They have 
made significant accomplishments over the past 3 years. 
Unfortunately, the changing drug threat leaves important 
parishes and counties uncovered by the HIDTA program. Too often 
we have been unable to respond to the changing drug threat in a 
timely manner. I am concerned that that will be the case on the 
Gulf Coast, and I am very pleased to have the opportunity to 
bring these matters to your attention.
    Thank you very much for having me testify this morning, and 
thank you very much for your very important work.
    [The prepared statement of Mr. Knight follows.]

    [GRAPHIC] [TIFF OMITTED] T1622.026
    
    [GRAPHIC] [TIFF OMITTED] T1622.027
    
    [GRAPHIC] [TIFF OMITTED] T1622.028
    
    [GRAPHIC] [TIFF OMITTED] T1622.029
    
    [GRAPHIC] [TIFF OMITTED] T1622.030
    
    [GRAPHIC] [TIFF OMITTED] T1622.031
    
    [GRAPHIC] [TIFF OMITTED] T1622.032
    
    [GRAPHIC] [TIFF OMITTED] T1622.033
    
    Mr. Mica. We appreciate your testimony and I will recognize 
next Mr. Tony Soto. Did you have a statement?
    Mr. Soto. No, sir, I was just here to answer any type of 
local perspective you might need.
    Mr. Mica. All right. Well then, we have heard from all of 
these witnesses, and I will start with some opening questions 
here.
    We heard from our DEA field office Director, Mr. 
Cazenavette, that we are seeing a rash of designer drugs and 
methamphetamine coming into this area. A particular problem, I 
guess, with the young people, the designer drugs you spoke 
about, the rave clubs. Where are these drugs coming from?
    Mr. Cazenavette. Most of the designer drugs are 
manufactured clandestinely.
    Mr. Mica. Locally or are they being transported 
internationally or domestically?
    Mr. Cazenavette. We have Ecstasy coming in internationally, 
but most of the methamphetamine----
    Mr. Mica. How is that transported into this area?
    Mr. Cazenavette. It is usually body-carried in.
    Methamphetamine is manufactured here. We have been getting 
methamphetamine out of Mexico, but we are seeing the larger 
labs, we are seeing some of them being operated by Mexican 
nationals here.
    Mr. Mica. Where are they getting the precursor chemicals?
    Mr. Cazenavette. The precursor chemicals, most of those are 
coming from outside of the United States. We have some chemical 
controls that we--new legislation and what have you, and the 
majority of the chemicals are coming from outside.
    Mr. Mica. Where?
    Mr. Cazenavette. What countries are they coming from?
    Mr. Mica. Yeah, where is the precursor chemical coming from 
for methamphetamine?
    Mr. Cazenavette. I would have to get you that answer, I am 
not sure.
    Mr. Mica. The influx of the designer drugs that we see 
coming in, is that an organized, or is this a combination of 
small dealers?
    Mr. Cazenavette. The ones that we are seeing is a 
combination of small dealers. The one organization that I 
mentioned was significant in just the volume, the amount of 
drugs that they were moving, 250,000 of them over a couple of 
years, that is quite a bit, on 20 trips actually the individual 
said he took.
    But as in methamphetamine, we are seeing just literally 
hundreds and hundreds of labs that are actually operated by 
individuals. We call them mom and pop labs, they are making 3, 
4 ounces at a time and selling it. They get other chemicals. 
The chemicals for these are mainly coming from--you can go buy 
them at supermarkets, Sam's, and what have you.
    Mr. Mica. The meth problem seems like it has hit pretty 
hard in the rural areas. And is that spreading now to the 
suburban and urban areas?
    Mr. Cazenavette. We are seeing that; the majority of the 
methamphetamine in the New Orleans division is produced in 
Arkansas. But we have seen it now moving over to northern 
Louisiana, northern Alabama, northern Mississippi. And we are 
seeing it more and more filtered down. So I think it is just 
coming, it will be here.
    Mr. Mica. Mr. Knight said that the structure of the HIDTA 
which was set up in 1996 was limited to some counties that had 
particularly harsh problems in 1996, but cited inflexibility as 
a problem with keeping up with current trends. Do you find that 
to be the case, as far as the effectiveness of this HIDTA, and 
do we need to revisit that configuration?
    Mr. Cazenavette. Yes, sir. We are trying, we would like to 
see it be extended into northern Alabama. We would like to see 
it go over to the western part of Louisiana. We are seeing more 
and more of our smaller communities, Monroe which is northern 
Louisiana, Lake Charles, Lafayette, we are seeing quite a bit 
of drug activity there, and we would like to have these HIDTAs 
extended out.
    Mr. Mica. There has been an operational budget of around $6 
million, and I think Mr. Vitter and others are requesting 
additional funding for the HIDTA. Is this a worthwhile 
expenditure, and are we getting results? And is this HIDTA 
effectively operating, in your estimation?
    Mr. Cazenavette. I believe that it is. The $6 million, we 
have been very conscious about the programs that we are putting 
into this HIDTA, and I have worked very closely with Mr. Knight 
and his staff, so we are making the dollars stretch. But you 
can only do so much with them. And when we want to get into 
other areas and expand the HIDTA itself, the only way you can 
do that is by gorging someone else's ox, and people, you know, 
they are not going to go for that.
    Mr. Mica. How would you describe the cooperation and 
participation in the HIDTA? Is it pretty broad and everyone 
participating on a successful basis? Is there some improvement 
needed?
    Mr. Cazenavette. No, sir. And I will speak to this area 
here----
    Mr. Mica. So it is not working well?
    Mr. Cazenavette. It is working fine. It is working fine. In 
fact, you have Chief Pennington and Chief Kenjemmi in the 
audience who supply personnel to this HIDTA and we work very 
good with all the agencies.
    Mr. Mica. And all the agencies are cooperating?
    Mr. Cazenavette. Yes, sir.
    Mr. Mica. All right. I asked that because, as we have gone 
around the country, we find that we have varying degrees of 
participation.
    And what about hard assets and equipment, and do you see 
the need for anything specifically that we should pay attention 
to?
    Mr. Cazenavette. Any type of technical equipment is always 
useful. Always useful. It helps our agents, it makes our 
manpower stretch a lot further, we can do more with this type 
of equipment than you can with just the agent personnel itself.
    Mr. Mica. What about the inability for local, State and 
Federal enforcement agencies to communicate because of 
different frequencies or different types of technical 
communications equipment?
    Mr. Cazenavette. That has always been a problem, and a 
problem for us for the last 31 years that I have been doing it. 
If we have an operation, normally, everybody passes out radios 
so we can all talk to each other. But if there was a system 
that everybody could use, obviously it would benefit everyone.
    Mr. Mica. And full cooperation in investigative efforts 
with other agencies, including FBI?
    Mr. Cazenavette. That is correct.
    Mr. Mica. Would you describe the level of prosecution, 
Federal prosecution for narcotics and offenses here?
    Mr. Cazenavette. We get very good cooperation from our U.S. 
Attorney. All of our investigations, DEA's plus the DEA-led 
HIDTA initiatives, we go to our U.S. Attorney and we get 
responses.
    Mr. Mica. There has been pressure on Congress to do away 
with minimum mandatory sentencing. For the record, could you 
state your opinion?
    Mr. Cazenavette. I think they should stay just like they 
are. It is a deterrent.
    Mr. Mica. Mr. Knight, would you comment for the record 
about minimum mandatory?
    Mr. Knight. Keep them.
    Mr. Mica. Mr. Soto, since you are here?
    Mr. Soto. Yes, sir, likewise. I have seen that----
    Mr. Mica. You are with the sheriff's office with the parish 
here?
    Mr. Soto. Yes, I am employed by Jefferson Parish, assigned 
to the HIDTA as a deputy director.
    Mr. Mica. What do you think about Federal minimum 
mandatory?
    Mr. Soto. I have seen great benefits, taking a lot of 
hardened criminals off the street that normally were in the 
State system over and over again. And then we go ahead and 
switch it over to the Federal side and get these guys off the 
street for a while. So I have seen its effect and it has done 
very well.
    Mr. Mica. Thank you. Mr. Vitter.
    Mr. Vitter. I really have no questions. I did want to take 
an opportunity to recognize several folks in our audience, 
distinguished members of the law enforcement community. Eddie 
Jordan, the U.S. Attorney from the Eastern District of 
Louisiana, we appreciate your being here. Also, Richard 
Pennington, Chief of Police with the city of New Orleans and 
Nick Kenjemmi, chief of police of the city of Kenner. And we 
are going to have a less formal discussion after this hearing, 
and you all are certainly invited. We look forward to your 
input about how the Federal assets can work very jointly, in a 
cooperative spirit with local and State government on all of 
these drug issues. So we appreciate your participation.
    I also want to recognize Peggy Wilson, formerly the city 
council and with De La Salle High School, we appreciate your 
being here and helping host us at De La Salle.
    That is all I have, Mr. Chairman.
    Mr. Mica. Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman.
    I want to get to this drug testing issue. Mr. Schneider 
talked about the various programs that he has and he mentioned 
a number of them. And he talked about pre- and post-testing of 
young folks involved in at least one or several of your 
programs. Could you tell me what this testing consists of and 
how this testing program is going forward and how effective you 
think it is?
    Mr. Schneider. It is basically a surveying and 
questionnaire of students before we present the program to 
them. And then after we present the program to them, it is 
another questionnaire of did you learn anything, what have you 
learned? You know, do you think that you are better educated 
and you are better aware to make better decisions as these 
objectives are thrown at you? And it also tells us whether we 
are presenting the right information, or do we need to shift 
gears and bring out new topics? Methamphetamine, does that need 
to be a bigger topic?
    So as we find out what they are needing, we are adjusting 
our pre- and post-testing to figure out if we are answering the 
questions that they really have.
    Mr. Jefferson. So it is not a test that involves hair 
testing or urinalysis or anything such thing as that?
    Mr. Schneider. No. No, sir.
    Mr. Jefferson. How do you choose the children who 
participate in the program?
    Mr. Schneider. We rely on the agencies that we support to 
target the different schools, and we are a matter of supporting 
those counselors that go into it. But we do not select the 
schools, we let the agencies that we support do that.
    Mr. Jefferson. There are lots of programs out here that are 
really working very hard and doing a good job within their 
sphere of operations to help keep young people off drugs, and 
when they are on it to help straighten them out as best they 
can. We talked a little bit about coordination between Mr. 
Pennington's office, the U.S. Attorney's office and Mr. 
Connick's office and so on, but all this drug testing issue, 
the question here is whether we can get a set of protocols put 
together for some cooperation between the various agencies to 
try and test--have as many young people as we can tested for 
drug use, because what you are reporting is a substantial drug 
use in our community, and many drugs the children have no real 
education about and I suppose part of our problem is getting a 
good education out there, particularly about these new drugs. 
Because they have heard a lot about the old ones and they move 
from that to these so-called less terrible ones, and we find 
out that they are just as bad as everything else. I mean, that 
is part of it, I know.
    But what Mr. Connick is trying to focus on, and I think 
what I would like to see us pay some attention to this morning 
is, how we can work together as a law enforcement community to 
focus on one way to deal with testing as many of our children 
as possible for drug use, because we know it is going on. We do 
not know who among them is out there using it, and their 
parents do not know, and the school may know some but the 
teachers do not necessarily know. But it is happening. Once we 
are able to find out that they are using it then we can do 
something about it, and it does not have to be that they get 
thrown out of school or not given a chance to complete their 
school work or whatever, it means that they can get the help 
they need to try to restore them to a path that is going to 
lead to a better, more successful future.
    So can we reach some agreement, do you think, if we sat 
down about it, about whether the non-invasive, or relatively 
non-invasive--for me it is not invasive, I have very little 
hair to test. But for those folks that do have it, can we agree 
that we ought to go forward kind of with an effort that Mr. 
Connick has been trying to install in this community for a good 
long time, that when we all preach the same gospel about 
testing, hair testing for drug use, and try to prosthelytize 
that throughout our school system, and try and push it at every 
level to make sure that we have as many people giving it 
credence and credibility as we possibly can? Would that be a 
good approach to this, to get at this problem? And do you have 
any problems with this idea of drug testing through hair 
sampling?
    Mr. Cazenavette. From DEA's stance, no, not at all. From my 
personal stance, I have two sons, and as a parent I would have 
had no objections whatsoever from anybody drug testing them. I 
would want to know. I would want to know. And I think from an 
agency standpoint, we support that effort. We do it by trying 
to lead the example by drug testing our employees, and I know 
that other police departments in this area, they also drug test 
their employees.
    Mr. Jefferson. The Supreme Court seems to have said that 
for students involved in certain extra-curricular activities, 
like sports and so on, you can do all sorts of tests there. For 
the rest of the children who are not involved in student 
leadership or whatever, it becomes more difficult. Then you 
have to have parents volunteering to make sure that it works 
out any legal problems. And that is where I think if we can 
focus our efforts on this, just trying to convince parents, 
going to parents and--going to schools and telling them that 
this would be a wonderful use of our time and of our 
coordinated efforts, we can do that.
    And I just want to urge all of us to work in that direction 
so that we can--I remember at a meeting the other day, the 
President was talking about education. And he said that there 
is something out there that is working, everywhere in the 
country. There is a program, or two or three, that have worked 
splendidly everywhere they have been used, but our trouble is 
replicating the successful things.
    And so the issue is, we need to focus on one way to get 
after this drug testing thing, and we preach that thing 
throughout our community and see if we cannot get people to buy 
it, parents particularly and schools, to buy it and go in that 
direction as a way in. So I hope, I just want to encourage--it 
is not much of a question, Mr. Chairman--I just want to 
encourage that sort of cooperation here on this issue.
    The last thing I want to ask, because the chairman asked a 
policy question.
    We spend a lot of money trying, not only interdict drugs 
coming into the country, but also with a whole lot of programs 
in other countries, trying to ask folks not to grow crops, to 
stop whatever, the growth of the plants that are used to create 
these various drugs. And we spend a lot of money on that. A lot 
of folks in Congress question whether that is the smart thing 
to do, whether we ought not to spend more money on the 
treatment issues here at home, on testing, and on other law 
enforcement issues here, and on treatment programs to bring 
people back when we found out that they have had some problems 
with drugs and need to restore them.
    Do you have any feel about whether, in this universe of 
spending--and anybody at the table--that we are putting too 
much emphasis on trying to suppress crop growth in, let us say, 
in Colombia, as opposed to trying to put treatment centers here 
in our country, and to do testing in our country, and to give 
you guys more money to try and stamp out the use in this 
country?
    Mr. Cazenavette. I think it is a total effort. You cannot 
just look at it from one particular perspective. You have to do 
it, the whole game. You got have to go from the beginning to 
the end. And should we be focusing our efforts down there to 
have them reduce crops? Absolutely. But should we do that to 
the detriment of something else? That would be up to someone 
that has actually got the purse strings to make that decision. 
But from an enforcement standpoint, we have to be aggressive, 
and we have to go at it at the origin, and we have to hit it 
everywhere between there until the final distribution.
    Mr. Jefferson. Anybody else?
    Mr. Cazenavette. Go right ahead.
    Mr. Knight. Mr. Jefferson, I think where you sit determines 
where you stand. It troubles me that we are talking about 
putting $1.6 billion into the government of Colombia for 
eradication efforts when we have so many problems here at home. 
But if we do not deal with that, the problems are going to 
continue. I believe Mr. Connick said earlier that, as long as 
we have a demand for drugs, they are going to keep coming here. 
So I second Mr. Cazenavette's comment that it is an issue of 
balance. We have to deal with the foreign operations, we have 
to deal with prevention, we have to deal with treatment and we 
have to deal with law enforcement. And we rely on you folks to 
make those decisions.
    Mr. Jefferson. I wish we were all smart enough to do it 
without talking to you, but we are not, you still need to help 
us make the right ones.
    On this issue of the demand, I was in some country or 
other, the other day, and the government had just democratized 
about a year ago. And we asked what their priorities were. And 
they said, we have got so many problems, nothing is a priority. 
Everything is--and so our conclusion was, when we left there, 
they are not going to get very much done if they do not make 
something here a priority. Everything is a priority, everybody 
is working on all kinds of stuff, and then nothing really gets 
done.
    I think in, the way we are doing this thing now, we have a 
pot of money we are spreading all over the place. If Mr. 
Connick is right about the demand side of it, if you and I were 
in our garages, they were packed to the hilt with drugs and we 
did not use them, the fact that they were there would be 
irrelevant, because it would be--we would not make any use of 
it.
    Somehow or other, on the demand side which includes 
education and treatment and prevention, is where our most 
pressing work seems to me to be, and I hope you will help us to 
think through that. Because if we can do that effectively, all 
this stuff for interdiction becomes less important because we 
have people that do not want to use the stuff, or who have been 
found out about and who we are getting some treatment for. The 
biggest problem we have is just like recidivism, folks who are 
on it keep going back on it, and we cannot get them off because 
we do not have the facilities here.
    So we need to get some real hard thinking and help from you 
all about that in the law enforcement community, because, 
believe it or not, we rely on you as much as you rely on us to 
help--you are the experts in this area. Help us to make the 
decisions in this area. We need your help on that.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Mr. Vitter.
    Mr. Vitter. And Mr. Chairman, I just quickly wanted to 
recognize another important player in this struggle who is in 
the audience. Mr. Jake Hadley. He is the Assistant Secretary 
with the Office of Alcohol and Drug Abuse for the State of 
Louisiana. Jake, we appreciate your being here today as well.
    Mr. Mica. I have a couple of followup questions. I notice 
there has been a dramatic reduction in deaths in the New 
Orleans area. I think you were topping some 4 years ago in the 
400 range, and it is down to 150-something, in that range, 
maybe that range. Can you provide the subcommittee with what 
you think is the reason for that dramatic reduction, and how 
they have managed to cut at least the murder rate in this 
community? Mr. Cazenavette.
    Mr. Cazenavette. Well, we work closely with the local 
enforcement officers, working closely with our HIDTA, targeting 
the most violent individuals that we can identify. And we have 
been doing that now for several years, and have been very 
successful. We had one organization that we took out that was 
responsible, I think we solved 16 homicides and the individual 
that was finally convicted, when asked after the conviction, he 
said he would do it all over again because he enjoyed it.
    Mr. Mica. Was that drug related?
    Mr. Cazenavette. Yes, it was.
    So we work very closely with Chief Pennington, Chief 
Kenjemmi, the other chiefs in the area. We have intelligence 
agents that go out and find out who the most violent are and we 
target them and go after them.
    Mr. Mica. What was the percentage of murders--I asked some 
of the other panelists, I think Mr. Connick, those involved in 
narcotics offenses, or involved in illegal narcotics in the 
murder, the high murder rate you had here when you were in the 
400 range?
    Mr. Cazenavette. The exact percent, I----
    Mr. Mica. Just if you could give us a guess.
    Mr. Cazenavette [continuing]. It is over 70 percent. Over 
70 percent.
    Mr. Mica. And with the current murder population that you 
have seen here, what percentage would you estimate?
    Mr. Cazenavette. I would say it is still high. It has got 
to be right in the same range.
    Mr. Mica. It is?
    Mr. Cazenavette. They are going down, though.
    Mr. Mica. The number of deaths. But you attribute that to 
going after dealers and people involved in crime and violence?
    Mr. Cazenavette. That is correct. You put them in jail and 
they cannot kill anyone.
    Mr. Mica. The National Guard program in Louisiana, do you 
go into both public and private schools?
    Mr. Schneider. It depends on if the agency has targeted a 
program in that school where they need our support. But yes, we 
do.
    Mr. Mica. You do go into both. And $40 million was the 
national increase in budget that you said you were requesting. 
How much would that be reflected in an increase in the 
Louisiana State budget?
    Mr. Schneider. We would ask for approximately $875,000 to 
maintain the task force at its current strength.
    Mr. Mica. I notice in testimony that was given this morning 
that there is an increase in deaths from designer drugs. What 
is the trend you are seeing there, Mr. Knight? Are these 
figures up, and what about, do you have any statistics you can 
provide this subcommittee at this point, where we are in drug-
related deaths, and some historic perspective, maybe, the past 
2, 3 years?
    Mr. Knight. That particular testimony came from Mr. 
Cazenavette. And I have been interested in the heroin overdose 
situation more than any other particular drug. I can tell you 
that the drug abuse warning network numbers for New Orleans 
have been up since the early 1990's. I do not recall the exact 
percentages. I know that those figures are always a couple of 
years behind. At one point it was 25 percent, I think in 1995 
or 1996 they were up an additional 6 or 7 percent. And 
anecdotally, I am hearing from the people around New Orleans 
that that continues to rise.
    Mr. Mica. Well we have homicides and we have drug overdose 
deaths. Would you care to comment, Mr. Cazenavette?
    Mr. Cazenavette. The designer drugs, the deaths that I am 
aware of, the ones that I mentioned in my testimony, the three 
individuals that overdosed, I believe it was on GHB, but the 
thing that I think is significant is that the report from the 
emergency rooms and people operating ambulances that we have 
interviewed said that their calls for drug overdoses have 
increased significantly. One of them commented that it was up 
70 calls in a matter of, I believe it was over a 12-month 
period of time.
    So I mean, when someone has overdosed, you are only a hair 
away from dying. So it is the luck of the draw. And when you 
get that increase in overdose activity, then you are going to 
have a corresponding increase in drug deaths.
    Mr. Mica. Some of the HIDTAs have had flexibility in the 
use of their funds for treatment, for community education, 
prevention and possibly other programs such as the one we have 
heard here today, drug testing in schools. What would be your 
opinion if additional funds were made available to allowing 
more flexibility in their use for some of these other non-
enforcement purposes?
    Mr. Cazenavette. I believe that the HIDTA should stick with 
the enforcement. I think there is a lot of programs out there 
for treatment and prevention, and there are ways you can fund 
these programs, increase their funding and what have you, have 
them work along with us. We have systems like the Weed and Seed 
where we go in on an enforcement operation, and then you want 
to have treatment and prevention people come in behind you. 
These organizations that do that, to give them additional 
funds, I would imagine they would be very appreciative of it.
    But I am looking at it from an enforcement perspective, 
there is enforcement initiatives we would like to do, there is 
the expansion we would like to have. And if additional funds 
come in, I would like to see those enforcement initiatives and 
money for the treatment and prevention, use the agencies and 
the people that are out there doing it.
    Mr. Mica. What kind of treatment programs are there in this 
area that are successful, and what percentages of success have 
you seen? Are you familiar enough to comment for the 
subcommittee?
    Mr. Cazenavette. No, sir, I am not.
    Mr. Mica. Mr. Knight.
    Mr. Knight. There are a number of very successful programs 
operating throughout the three States, both in terms of 
treatment and prevention. Weed and Seed, Mr. Cazenavette 
mentioned. There is also the drug-free communities program, 
which is just getting started in the last couple of years. 
There are three or four communities in the three-State area--
perhaps more, perhaps five, that have received grants of up to 
$100,000 where the community bands together, develops a drug-
control strategy and implements the strategy. And frankly, we 
tried to do that on a much smaller scale with our operation 
when we were first starting out. We found out, No. 1, we were 
duplicating existing programs such as Drug-Free Communities. 
Drug-Free Communities did not actually exist at that time, but 
it has since come online. Weed and Seed program has become much 
more effective.
    No. 2, we did not have the expertise to oversee those sorts 
of programs. We thought we could create something that would 
eliminate some bureaucracy and get communities working much 
more closely with law enforcement for common crime reduction 
goals, and we found that we did not have the expertise to 
implement that sort of program, nor did we have the staff. My 
executive committee voted to stick strictly with law 
enforcement matters.
    There is--and I am sorry, I cannot think of--Rosemary Mumm 
would be much more familiar with this program than I am, that 
deals with treatment of prisoners when they have been released 
from prison, and putting them back into the community, job 
training, that sort of thing that has been very successful. The 
State of Alabama does a number of treatment programs in prison 
where they have also been very successful. But there are a 
number of people in this room that are more qualified than I 
am, but there are successes out there, I can tell you.
    Mr. Mica. Mr. Soto, what about Jefferson Parish? You have 
successful treatment programs there?
    Mr. Soto. Yes, sir, we do.
    Mr. Mica. What kind of success rate? Are you familiar with 
that?
    Mr. Soto. I am not familiar with the success rate, but I am 
familiar with the particular program.
    Mr. Mica. Public or private or combination?
    Mr. Soto. Combination. I am familiar with a particular 
program in Jefferson Parish called Project STAR, and that was 
initiated by Jefferson Parish Sheriff's office, and it is a 
combination of enforcement and community policing, and it 
brings together all those elements into one neat package. And 
the acronym stands for Survey, Target, Arrest and Rejuvenate. 
And the program revolves around targeting the 17 most crime-
ridden neighborhoods in Jefferson Parish for a specific 
community policing action, along with coordinated enforcement 
actions and followup.
    Mr. Mica. How long does it take for someone in Jefferson 
County to get access to an inpatient bed for treatment? Are 
they available?
    Mr. Soto. They are available, but it is very strained. I 
could not give you the exact information.
    Mr. Mica. What about outpatient services? Adequate?
    Mr. Soto. Outpatient, adequate, could need improvement.
    Mr. Mica. OK. I am just trying to get a picture of what is 
going on in different communities. We will have an opportunity 
to meet with some of the local officials and discuss that, I 
think, after the hearing, informally.
    Is there anything else that any of you would like to bring 
before the subcommittee today, again given our broad area of 
jurisdiction and oversight? Any recommendations you might have 
for us to take back to our colleagues or to Congress, something 
you would like to see done? That is one of the reasons we are 
here, as Mr. Jefferson and Mr. Vitter said, is to hear from 
you.
    Mr. Soto.
    Mr. Soto. Yes, sir. I would like to mention that, you know, 
I know with the times now, about cutting back on Federal 
funding and trying to downsize, I do not think now is the time 
to try and downsize the fight on drugs, both on the demand side 
as well as on the enforcement side.
    Mr. Mica. Mr. Knight.
    Mr. Knight. I will second Mr. Soto's comments. And again, 
mention the need for balance in Federal drug control efforts. 
We have tried emphasis on interdiction, we have tried an 
emphasis on investigations, all of which are very important. 
The law enforcement, of course, is the defense, if you will, in 
the war on drugs. But I think we have proven that, without a 
balanced approach, we cannot solve the problem.
    Mr. Mica. Mr. Schneider.
    Mr. Schneider. Yes, thank you.
    Mr. Mica. You have already had the budget buster request in 
front of me. These local folks only asked for $2 million more.
    Mr. Schneider. Yes. I am speaking nationally, of course.
    What I would like to mention is that all of the programs 
that you have heard here, mentioned by all of these other 
agencies, the Guard is actively participating in, with the 
exception of treatment, in which we are not involved. But 
prevention, education, interdiction, the Guard in Louisiana is 
involved with all of these agencies, and I have Guard in 
supporting all of them. So just keep that in mind, that the 
Guard is intricately involved in all of the operations, both on 
interdiction and demands.
    Mr. Mica. Mr. Cazenavette.
    Mr. Cazenavette. Just to emphasize that you need a balanced 
approach. These individuals, they are business people, the 
bottom line is everything to them. We had a recent case where 
we arrested two individuals out of New York that came down with 
6 ounces of heroin and was giving it away, looking for a 
customer base. So you need to keep a very strong enforcement, 
and you also need to have that balanced approach of treatment 
and prevention.
    After 31 years of doing this, I thought we could conquer 
the world. Well, we cannot, but I liken police officers to zoo 
keepers, you keep the animals in the cage so the people can 
enjoy walking around and having a good life. And you take the 
money away from the police officer and you are going to see a 
lot more people get hurt.
    Mr. Mica. Thank you. Mr. Jefferson.
    Mr. Jefferson. That is all, Mr. Chairman. I appreciate it.
    Mr. Mica. Mr. Vitter.
    All right. Well, I want to take this opportunity to thank 
each one of these witnesses for their participation in this 
panel, and for your work and dedication to trying to bring 
under control a very serious problem that we face, both from an 
enforcement and an education community standpoint. We 
appreciate your recommendations also to the subcommittee today, 
and we will see if we can incorporate some of the suggestions, 
good experience that we have learned about here in this 
community, hopefully be able to repeat it and also repeat some 
of that success.
    There being no further business then to come before this 
subcommittee at this time, this hearing is adjourned. Thank 
you.
    [Whereupon, at 12:30 p.m., this subcommittee was 
adjourned.]


</pre></body></html>
